                   OFFICE OF INSPECTOR GENERAL
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                         Incurred Cost Audit of Grants Awarded
                                         to the
                          Kentucky Commission on Community
                                Volunteerism and Service


                             OIG Audit Report Number 02- 10
                                   October 23,2001




                                  Financial Schedules
                                           and
                             Independent Auditors' Report
                                     For the Period
                         January 28, 1994 to December 3 1,2000




                                        Prepared by:

                                      KPMG LLP
                                  2001 M Street, N.W.
                                 Washington, D.C. 20036

                               Contract No. GS 23F 8 l27H
                               Task Order No. 00-01, Task F



This report was issued to Corporation management on April 18, 2002. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than October 15, 2002, and complete its
corrective actions by April 18, 2002. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                             CORPORATION
                               Office of Inspector General
                     Corporation for National and Community Service                           FOR NATIONAL
                                   Audit Report 02-10

                    Incurred Cost Audit of Grants Awarded to the
             Kentucky Commission on Community Volunteerism and Service

Introduction

The Corporation for National and Community Service, pursuant to the authority of the
National and Community Service Act, awards grants and cooperative agreements to state
commissions, nonprofit entities, tribes and territories to assist in the creation of full and
part time national and community service programs. Currently, in accordance with the
Act's requirements, the Corporation awards approximately two thirds of its AmeriCorps
Staternational h d s to state commissions. The state commissions in turn fund and are
responsible for the oversight of subgrantees that execute specific programs. Through
these subgrantees, AmeriCorps members perform service to meet educational, human,
environmental, and public safety needs.

OIG engaged KPMG LLP to audit Corporation grants to the Kentucky Commission and
its subgrantees for the period from January 28, 1994 through December 3 1, 2000 for
ArneriCorps, Learn and Serve, Administration, and Professional Development and
Training programs. The auditors identified total questioned claimed costs' of $5,587,955
(approximately 32.7%) out of total claimed costs of more than $17 million. A significant
portion of the questioned costs ($2,724,186) was due to the inability of subgrantees to
provide supporting documentation, such as general ledgers and payroll records, because
their record retention policies did not comply with requirements in the AmeriCorps
Provisions.

The auditors identified a number of conditions relating to internal control over financial
reporting that are characterized as material weaknesses. First, the report concludes that
the Commission lacked adequate procedures for monitoring the financial activity and
related compliance with laws and regulations of its subgrantees, especially retention of
verifiable records to support reported program results, The second material weakness
relates to the absence of an effective system at the Commission for ensuring quality
control of accounting and financial reporting activities and for assessing the system for
internal controls to safeguard assets, produce reliable financial reports, and complying
with laws and regulations.

    Since the Commission lacked an adequate system during the audit period to monitor its
    subgrantees' financial and programmatic activities and some of the subgrantees failed to
    maintain adequate accounting and/or program files, the scope of the audit work was not

I
  Questioned costs are costs for which there is documentation that the recorded costs were expended in
violation of Federal laws, regulations or the specific conditions of the award, costs which required
additional support by the grantee, or which require interpretation of allowability by the Corporation.


                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington. DC 20525
sufficient to enable the auditors to express an opinion on the Commission's Schedules of
Award Costs. The report explains that this disclaimer results from the lack of controls
over financial reporting and compliance, the significance of the questioned costs
identified in relation to the total claimed costs and the nature of other report findings.

OIG provided the Commission and the Corporation a draft of this report for their review
and comment. Their responses are included in their entirety as Appendices A and B,
respectively.   The Commission disagreed with most of the findings and
recommendations, especially with the auditors' interpretation of record retention
requirements. Additionally, the Commission noted that it has recently implemented a
risk-based monitoring tool that deals with both program and fiscal monitoring
requirements. The Corporation indicated that it would respond to the report's findings
and recommendations during the audit resolution process. The auditors responded to the
Commission's comments in Appendix C.

OIG recommends that the Corporation conduct additional oversight and monitoring of
the Commission to evaluate new procedures and controls with testing at both the
Commission and at the subgrantee level and to determine whether these corrective
actions are effective.
                                   Office of Inspector General
                        Corporation for National and Community Service
                          Incurred Cost Audit of Grants Awarded to the
                  Kentucky Commission on Community Volunteerism and Service



                                                       Table of Contents

                                                                                                                  Page


INDEPENDENT AUDITORS' REPORT.................................................

Summary .......................................................................................................

Report on the Schedules of Award Costs ......................................................

Schedules of Award Costs (Exhibits A - E)

     Exhibit A - Consolidated Schedule of Award Costs:
        AmeriCorps .......................................................................................

     Exhibit B - Schedule of Award Costs:
        Learn & Serve ...................................................................................

     Exhibit C - Schedule of Award Costs:
        Administrative ...................................................................................

     Exhibit D - Schedule of Award Costs:
        Program Development and Training .................................................

      Exhibit E - Schedule of Award Costs:
         State Disability Funds Grant Award .................................................

      Notes to Schedules of Award Costs ........................................................

Report on Internal Control over Financial Reporting ...................................

      Material Weaknesses
         Grants and Program Management .....................................................
         Financial Management and Reporting ..............................................

Report on Compliance...................................................................................
     AmeriCorps Grant

           A . Compliance Findings Resulting in Questioned Costs .................
           B . Other Compliance Findings .........................................................

     Learn & Serve Grant

           C . Compliance Findings Resulting in Questioned Costs .................
           D . Other Compliance Findings ........................................................

     Administrative and Program Development and Training (PDAT) Grants

           E . Compliance Findings Resulting in Questioned Costs..................
           F . Other Compliance Findings .........................................................

     Other Procedures .....................................................................................

Responsibilities

     Management's Responsibility .................................................................
     Auditors' Responsibility .........................................................................
     . .
Distribution....................................................................................................

Exhibits F- 1 through F- 13 .Supplemental Schedules of Award Costs .AmeriCorps

           Exhibit F-1 .Schedule of Award Costs:
           Homeless and Housing Coalition of Kentucky .................................

           Exhibit F-2 .Schedule of Award Costs:
           Kentucky State University ................................................................

           Exhibit F-3 .Schedule of Award Costs:
           Community Action of Southern Kentucky. Inc ................................

            Exhibit F-4 .Schedule of Award Costs:
            Big Sandy Area Development District ..............................................

            Exhibit F-5 .Schedule of Award Costs:
            Morehead State University ................................................................

            Exhibit F-6 .Schedule of Award Costs:
            Community Action Council of Lexington .         Fayette. Bourbon.
            Harrison & Nicholas Counties. Inc...................................................
       Exhibit F-7 - Schedule of Award Costs:
       Simpson County Board of Education ................................................

       Exhibit F-8 - Schedule of Award Costs:
       Christian County Public Schools ......................................................

        Exhibit F-9 - Schedule of Award Costs:
        Eastern Kentucky University ............................................................

        Exhibit F-10 - Schedule of Award Costs:
        Northern Kentucky United Way .......................................................

        Exhibit F-1 1 - Schedule of Award Costs:
        Green River Area Development District ...........................................

        Exhibit F-12 - Schedule of Award Costs (unaudited):
        Jefferson County. ..............................................................................

        Exhibit F- 13 - Schedule of Award Costs (unaudited):
        City of Leitchfield .............................................................................

   Exhibit G - Follow-up on Pre-Audit Survey Report Findings and
   Recommendations ...................................................................................

APPENDICES

Responses to Report

   Kentucky Commission on Community Volunteerism and Service ........... Appendix A
   Corporation for National and Community Service .................................... Appendix B

   KPMG's Comments on the Response to Report by the Kentucky
   Commission on Community Volunteerism and Service ............................ Appendix C
            2001 M Street, N.W.
            Washington, DC 20036




                                                Independent Auditors' Report



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP performed an incurred cost audit of the costs claimed by the
Kentucky Commission on Community Volunteerism and Service and its subgrantees
from January 28, 1994 through December 3 1,2000. The primary objective of the
incurred cost audit was to express an opinion concerning whether the Schedules of
Award Costs (Exhibits A through E) fairly present the costs incurred by the Commission,
during the period under audit, in conformity with the terms of the Commission's grant
agreements with the Corporation for National and Community Service. Additionally, in
planning and performing our audit we also considered the Commission's internal controls
over financial reporting and its compliance with federal laws, applicable regulations, and
award Provisions. Further, we inquired of the Commission and its subgrantees selected
for audit, as to their awareness of the Corporation's Government Performance and
Results Act (GPRA) goals.

SUMMARY

Our report expresses a disclaimer of opinion on the Commission's Schedules of Award
Costs due to the lack of controls over financial reporting and compliance, as well as, the
nature of the findings identified, and the significance of the questioned costs identified in
relation to total costs incurred.

Our consideration of internal control over financial reporting identified a number of
matters which require correction. We consider the following conditions to be material
weaknesses:

       Grants and Program Management - Adequate procedures for monitoring the
       financial activity and related compliance with laws and regulations of the
       Commission's subgrantees are not in place. Procedures for ensuring that
       verifiable records are maintained to support reported results in accordance with
       program requirements were not effective.

       Financial Management and Reporting - An effective system for ensuring
       quality control of accounting and financial reporting activities at the Commission
       for the period under review was not in place. Additionally, a comprehensive
       process for assessing the system of internal control for safeguarding assets,




1111          KPMG LLP KPMG LLP a U S h t e d Ihab8llty ~ a i t n e r s h ps
              a member of KPMG lnrernatanal a Swiss a s o c a t l o n
       producing reliable financial reports, and complying with laws and regulations was
       not in place.

Our tests of compliance with laws and regulations disclosed instances of noncompliance
resulting in questioned claimed costs as follows:

           $5,170,103 of claimed federal costs out of total claimed federal costs of
           $14,4 19,096 (35.9%) for the 11 AmeriCorps and 1 Learn & Serve subgrantees
           tested;
           Related match of $2,574,693 of the total reported match of $6,415,353
           (40.1%) for these same 12 subgrantees;
           $367,637 of claimed federal costs out of total claimed federal costs of
           $1,587,656 (23.2%) for the Commission's Administrative and PDAT grants;
           Related match of $266,463 of the total reported match of $97 1,465 (27.4%)
           for the Commission's Administrative grant;
           $50,215 of claimed federal costs (100%) and $13,500 of related match (100%)
           for the one subgrantee selected for testing for which we could not gain access
           to the related records; and
           $827,562 related to Education Awards that may have been awarded to
           ineligible members.

In total, we questioned $5,587,955 (32.7%) of the claimed federal costs, and $2,854,656
(34.6%) of the related match amounts, for all grants administered by the Commission
during the audit period.

A significant portion of the questioned costs was due to the inability of subgrantees to
provide supporting documentation because their record retention policies did not comply
with AmeriCorps Provisions. The Provisions state that the grantee must retain and make
available all financial records, supporting documentation, statistical records, evaluation
data, member information and personnel records for 3 years from the date of the
submission of the final expenditure report (Financial Status Report). However, most of
the grants at the Commission have not had their final Financial Status Report submitted.
In addition, the Corporation has not closed out any of these grants. Because the
Corporation did not specifically inform the Commission on the length of time the records
related to the AmeriCorps program needed to be maintained, the Commission, in turn, did
not provide this guidance to its subgrantees. For some subgrantees, the lack of
documentation was a result of change in subgrantee location or management, and in other
cases it was due to the subgrantee records retention policy being much shorter than the
AmeriCorps Provisions' requirement. Of the above questioned claimed federal and
match costs, $2,724,186 represents amounts related to the lack of supporting financial
records such as general ledgers and payroll records.

The Corporation, pursuant to the authority of the National and Community Service Act of
1990, as amended, awards grants and cooperative agreements to State Commissions,
nonprofit entities and tribes and territories to assist in the creation of full and part time
national and community service programs. State Commissions are prohibited from
directly operating national service programs. State Commissions provide AmeriCorps
funding to approved applicants for service programs within their states and are
responsible for monitoring these subgrantees' compliance with grant requirements.
These awards provide funding for AmeriCorps members to perform service to meet
educational, human, environmental, and public safety needs throughout the nation. In
return for this service, eligible members may receive a living allowance and post service
educational benefits.

The Kentucky Commission on Community Volunteerism and Service located in
Frankfort, Kentucky, currently operates as part of the State of Kentucky's Cabinet of
Families and Children, but was formerly a part of the State of Kentucky's Council on
Post Secondary Education (prior to January 2000). The Corporation and the State of
Kentucky provide the only sources of funding for the Commission. Receipt and
disbursement of grant funds are processed and accounted for within the State of
Kentucky's general ledger system. The Commission has received AmeriCorps grant
funds from the Corporation since program year 1994-95.

Only 6 of the 13 Commission subgrantees that we selected to audit currently continue to
receive Corporation funds - Homeless and Housing Coalition of Kentucky, Simpson
County Board of Education, Eastern Kentucky University, Morehead State University,
Big Sandy Area Development District, and Green River Area Development District.
Nonetheless, the various compliance issues identified in relation to all subgrantees
indicate that the Commission needs to provide more guidance to subgrantees on record
retention and documentation standards for such items as eligibility, time sheets, member
service hours, AmeriCorps roster updates on member status, and other claimed costs
submitted for reimbursement and matching costs reported. In addition, the Commission
should establish policies and procedures to ensure that its subgrantees maintain financial
management systems that include standard accounting codes and a clear audit trail, and
are capable of distinguishing expenditures attributable to grant and non-grant funding,
identifying costs by budget line item, and differentiating between direct and indirect
costs. The Commission should also implement policies and procedures requiring its
subgrantees to review member support and program operating matching requirements and
ensure compliance.

The following sections comprise our report on the Schedules of Award Costs, our
consideration of the Commission's internal control over financial reporting, our tests of
the Commission's compliance with certain provisions of applicable laws, regulations, and
the terms of the Corporation's grant awards, and the Commission's and our
responsibilities.
REPORT ON THE SCHEDULES OF AWARD COSTS

We were engaged to audit the accompanying AmeriCorps Consolidated, Learn & Serve
Consolidated, Administrative, Program Development and Training (PDAT), and State
Disability Funds Schedules of Award Costs (Exhibits A through E) for the Kentucky
Commission on Community Volunteerism and Service, a grantee of the Corporation for
National and Community Service, for the awards and award periods listed below:

Program                       Award Number            Award Period

AmeriCorps



Learn & Serve

Administrative

Program Development and
Training (PDAT)

State Disability Funds

Our audit period covered (a) program years 1994-95 through the first quarter of 2000-01
for the AmeriCorps program and (b) the entire award periods noted above for the Learn
& Serve, Administrative, PDAT and State Disability Funds programs.

As discussed in our Report on Internal Control over Financial Reporting and our Report
on Compliance, the Commission did not have an adequate system in place, during the
period under audit, to monitor the financial and programmatic activities of its
subgrantees. Additionally, certain of the Commission's subgrantees did not maintain
adequate accounting records andlor AmeriCorps program files, and adequate evidential
matter in support of recorded transactions was not available in all cases. As a result, we
identified instances of noncompliance and questioned costs, which are material to the
Schedules of Award Costs.

Further, there were several changes in Commission and subgrantee employees and key
management personnel during the period under audit, and certain former subgrantees no
longer participate in or administer the AmeriCorps or Learn & Serve Programs. As a
result, present management of both the Commission and its subgrantees was unable to
furnish us with knowledgeable representation of facts and circumstances regarding
certain transactions arising during the audit period. It was impracticable to extend our
procedures sufficiently to determine the extent to which the Schedules of Award Costs
may have been affected by the foregoing conditions.
Because of the matters discussed in the two preceding paragraphs, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on the
accompanying AmeriCorps Consolidated, Learn & Serve Consolidated, Administrative,
PDAT, and State Disability Funds Schedules of Award Costs.

The Schedules of Award Costs by subgrantee (Exhibits F-1 through F-13) are presented
for additional analysis of the AmeriCorps Consolidated Schedule of Award Costs
(Exhibit A) rather than to present the costs incurred by the individual subgrantees.
Because of the matters discussed in the second and third preceding paragraphs, the scope
of our work was not sufficient to enable us to express, and we do not express, an opinion
on this information.
                                                                                                        Exhibit A

                         Kentucky Commission on Community Volunteerism and Service
                                                AmeriCorps
                                    Consolidated Schedule of Award Costs
                                From September 1,1994 to December 31,2000

                                                  Approved                  Claimed        Questioned
              Cost Categow                         Budget                    Costs           Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

SalariesILiving Allowance
BenefitstFICA

Operating Costs

Internal Evaluation:

Administration:

Missing General Ledger Detail:

Adjustment to Agree General Ledger
to FSRs:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:


                                     See accompanying notes to Schedules of Award Costs.

                                                             6
                                                                                              Exhibit B

                          Kentucky Commission on Community Volunteerism and Service
                                                Learn & Serve
                                     Consolidated Schedule of Award Costs
                                    From July 1,1994 to September 30,1999


                                                Approved               Claimed            Questioned
                                                 Budget                 Costs               Costs

Corporation Funds
Micro City Government

Kentucky River Foothills Development

All Other Learn & Serve Subgrantees                                                               NIA

Total Corporation Funds                                                                         54,333

Match Funds
Micro City Government

Kentucky River Foothills Development

All Other Learn & Serve Subgrantees                                                               NIA

Total Match Funds                                                                               17,255

Total Funds                                                                           $         71,588




                            See accompanying notes to Schedules of Award Costs.

                                                       7
                                                                                         Exhibit C

                        Kentucky Commission on Community Volunteerism and Service
                                          Administrative Award
                                        Schedule of Award Costs
                                From January 28,1994 to December 31,2000


                                                   Approved            Claimed      Questioned
              Cost Category                         Budget              Costs         Costs

Personnel                                      $      946,660      $      774,652

Travel                                                144,800             157,595

Subcontracts/Grants/Agreements                         63,071               2,181

Operating Costs                                        91,357              61,353

Other Costs                                           299,291             120,592

Indirect Costs

Unidentified Reduction in Budget

Awards Not Subject to Match
Requirements
   Interim PDAT
   Disability Funds
   Unified State Plan

Questioned Costs Not Identified
with a Specific Budget Line

Federal Costs Claimed in Excess of
Approved Percentage

Total Corporation Funds Prior to
Carryover Deduction

Less Carryover Funds

Total Corporation Funds

Total Matching Funds

Total Funds




                              See accompanying notes to Schedules of Award Costs.

                                                        8
                                                                                         Exhibit D

                        Kentucky Commission on Community Volunteerism and Service
                                Program Development and Training (PDAT)
                                           Schedule of Award Costs
                                   From January 1,1995 to December 31,2000


                                                   Approved             Claimed     Questioned
              Cost Category                         Budget               Costs        Costs

Program Staff
    Salary & Benefits

Program Staff Development

Consultants

Training Events

Sub-contracts, Sub-grants

Communication - Systems

Supplies

Other

Questioned Costs Not Identified
with a Specific Budget Line

Total Corporation Funds Prior to
Carryover Deduction

Less: Carryover Funds

Total Corporation Funds




                              See accompanying notes to Schedules of Award Costs.

                                                        9
                                                                                            Exhibit E

                         Kentucky Commission on Community Volunteerism and Service
                                    State Disability Funds Grant Award
                                          Schedule of Award Costs
                                 From February 1,1997 to December 31,1999


                                                Approved             Claimed         Questioned
            Cost Category                        Budget               Costs            Costs

Outreach I Recruitment                              $17,300                    $0

Training 1 Technical Assistance                      12,788                 716

Reasonable Accommodation                             45,133                 265

Total Corporation Funds Prior to
Carryover Deduction

Less: Carryover Funds                               (45,000)

Total Corporation Funds




                             See accompanying notes to Schedules of Award Costs.

                                                       10
            Kentucky Commission on Community Volunteerism and Service
                        Notes to Schedules of Award Costs


1. Summary of Significant Accounting Policies

Reporting Entity

The accompanying Schedules of Award Costs include amounts budgeted, claimed, and
questioned under AmeriCorps, Learn & Serve, Administrative, Program Development
and Training (PDAT), and State Disability grants awarded to the Kentucky Commission
on Community Volunteerism and Service by the Corporation for National and
Community Service for the period January 28, 1994 to December 3 1,2000.

The Commission subsequently awards its grant funds to numerous subgrantees that
administer the AmeriCorps and Learn & Serve programs and report financial and
programmatic results to the Commission.

Basis of Accounting

The accompanying Schedules have been prepared to comply with the Provisions of the
grant agreements between the Corporation and the Commission. The information
presented in the Schedules has been prepared from the reports submitted by the
Commission to the Corporation and the accounting records of the Commission and its
subgrantees. The basis of accounting used in preparation of these reports differs slightly
from accounting principles generally accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of
being recognized as an asset and depreciated over its useful life. As a result, the expenses
reflected in the Schedules of Award Costs include the cost of equipment purchased
during the period rather than a provision for depreciation. The equipment acquired is
owned by the Commission while used in the program for which it was purchased or in
other future authorized programs. However, the Corporation has a reversionary interest
in the equipment. Its disposition, as well as the ownership of any proceeds therefore, is
subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.
Exvlanation of Selected Schedule Line Items

Salaries/Living Allowance and BenefitdFICA

These line items include total claimed and questioned costs related to staff salaries and
related benefits and member living allowances and related benefits for one subgrantee
that did not track staff and member payroll separately for most program years.

Missing General Ledger Detail

This line reports the amount of claimed and questioned costs related to the period of time
for which one subgrantee could not provide general ledger detail or other documentation
supporting the costs claimed during that period.

Adjustment to Agree General Ledger to Financial Status Reports (FSRs)

AmeriCorps general ledger detail provided by various subgrantees did not agree to the
submitted FSRs. The amount on this line represents the difference between these two
sources of information.

Federal Costs Claimed in Excess of Claimed Percentage

The results of the incurred cost audit indicated that various subgrantees did not meet the
matching requirements of their approved AmeriCorps budgets. Such requirements are
divided between Section A costs (member support costs) and Sections B-F costs (other
costs). In the accompanying Schedules of Award Costs, these lines represent the amount
of questioned costs resulting from the subgrantees' failure to meet the matching
requirements in each cost section.

Ouestioned Costs

Questioned costs are costs for which there is documentation that the recorded costs were
expended in violation of the law, regulations or specific conditions of the awards, or
those costs which required additional support by the grantee or which require
interpretation of allowability by the Corporation. Certain amounts included in questioned
member support costs are based on estimates. Questioned costs included on the
accompanying Schedules do not include potentially disallowed education awards related
to ineligible members. Such additional questioned costs amount to $827,562.

A detailed reconciliation of amounts identified as questioned costs in the Report on
Compliance to those reflected on Exhibits A through D is presented in Note 2.
                                         2.A. Summary of Questioned Costs - AmeriCorps and Learn and Serve Grants



                                                                                 Consolidated Full   Consolidated Full
                                                             Consolidated Full    Scope Audit -       Scope Audit -
                                                 Finding     Scope Audit - All     AmeriCorps         Learn & Serve
                  Finding                        Number        Subgrantees         Subgrantees         Subgrantees
Questioned Claimed Costs
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger and/or payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support certain federal
costs were destroyed
Documentation to support selected
payments claimed under the grant was not
maintained
Administrative costs in excess of the
maximum Corporation share
Funds were allocated to different budget
cost categories without prior approval
Insufficient explanations for variances in
payroll expenditures
Certain calculation errors were made by
subgrantee personnel
Inability to gain access to subgrantee
records
Matching requirements were not met
  Subtotal

Questioned Match
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger and/or payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support selected
payments claimed under the grant was not
maintained
Insufficient explanations for variances in
payroll expenditures
Certain calculation errors were made by
subgrantee personnel
Inability to gain access to subgrantee
records
Documentation to support certain
matching costs were destroyed
Match amounts claimed are not properly
supported
   Subtotal
                                     Total
                                                                                                            (continued)
                                         2.A. Summary of Questioned Costs - Amencorps and Learn and Serve Grants




                                                              Homeless &                            Community
                                                               Housing                               Action of      Morehead
                                                Finding       Coalition of     Kentucky State        Southern         State
                  Finding                       Number         Kentucky          University        Kentucky, Inc.   University
Questioned Claimed Costs
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger and/or payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support certain federal
costs were destroyed
Documentation to support selected
payments claimed under the grant was not
maintained
Administrative costs in excess of the
maximum Corporation share
Funds were allocated to different budget
cost categories without prior approval
Insufficient explanations for variances in
payroll expenditures
Certain calculation errors were made by
subgrantee personnel
Inability to gain access to subgrantee
records
Matching requirements were not met
  Subtotal

Questioned Match
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger andlor payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support selected
payments claimed under the grant was not
maintained
Insufficient explanations for variances in
payroll expenditures
Certain calculation errors were made by
subgrantee personnel
Inability to gain access to subgrantee
records
Documentation to support certain
matching costs were destroyed
Match amounts claimed are not properly
supported
   Subtotal
                                        Total
                                                                                                                     (continued)
                                             2.A. Summary of Questioned Costs - AmeriCorps and Learn and Serve Grants




                                                                  Community         Simpson County       Christian       Eastern
                                                    Finding     Action Council of       Board of       County Public    Kentucky
                     Finding                        Number       Lexington, et al      Education         Schools        University
-   Q
    Lack of Documentation
        Eligibility Requirements
        Time and attendance records and
        proper authorization of timesheets
    General ledger and/or payroll records
    were not maintained, or expenses reported
    in the FSRs exceeded expenses recorded
    in the general ledger
    Documentation to support certain federa1
    costs were destroyed
    Documentation to support selected
    payments claimed under the grant was not
    maintained
    Administrative costs in excess of the
    maximum Corporation share
    Funds were allocated to different budget
    cost categories without prior approval
    Insufficient explanations for variances in
    payroll expenditures
    Certain calculation errors were made by
    subgrantee personnel
    Inability to gain access to subgrantee
    records
    Matching requirements were not met
      Subtotal

    Questioned March
    Lack of Documentation
        Eligibility Requirements
        Time and attendance records and
        proper authorization of timesheets
    General ledger and/or payroll records
    were not maintained, or expenses reported
    in the FSRs exceeded expenses recorded
    in the general ledger
    Documentation to support selected
    payments claimed under the grant was not
    maintained
    Insufficient explanations for variances in
    payroll expenditures
    Certain calculation errors were made by
    subgrantee personnel
    Inability to gain access to subgrantee
    records
    Documentation to support certain
    matching costs were destroyed
    Match amounts claimed are not properly
    supported
       Subtotal
                                      Total

                                                                                                                         (continued)
                                         2.A. Summary of Questioned Costs - Amencorps and Learn and Serve Grants



                                                                                 Green River     Consolidated Full
                                                                Northern            Area          Scope Audit -
                                                Finding      Kentucky United     Development       Amencorps
                  Finding                       Number            way              District        Subgrantees
Questioned Claimed Costs
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger and/or payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support certain federal
costs were destroyed
Documentation to support selected
payments claimed under the grant was not
maintained
Administrativecosts in excess of the
maximum Corporation share
Funds were allocated to different budget
cost categories without prior approval
Insufficient explanations for variances in
payroll expenditures
Certain calculation errors were made by
subgrantee personnel
Inability to gain access to subgrantee
records
Matching requirements were not met
  Subtotal

Questioned Match
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger and/or payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support selected
payments claimed under the grant was not
maintained
Insufficient explanations for variances in
payroll expenditures
 Certain calculation errors were made by
 subgrantee personnel
 Inability to gain access to subgrantee
 records
 Documentation to support certain
 matching costs were destroyed
 Match amounts claimed are not properly
 supported
    Subtotal
                                   Total
                                                                                                        (continued)
                                         2.A. Summary of Questioned Costs - AmeriCorps and Learn and Serve Grants
                                                                                   Learn & Serve

                                                                                  Kentucky River       Consolidated Full
                                                                                    Foothills           Scope Audit -
                                                Finding         Microcity          Development          Learn & Serve
                  Finding                       Number         Government            Council             Subgrantees
Questioned Claimed Costs
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger and/or payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support certain federal
costs were destroyed
Documentation to support selected
payments claimed under the grant was not
maintained
Administrative costs in excess of the
maximum Colporation share
Funds were allocated to different budget
cost categories without prior approval
Insufficient explanations for variances in
payroll expenditures
Certain calculation errors were made by
subgrantee personnel
Inability to gain access to subgrantee
records
Matching requirements were not met
  Subtotal

Questioned Match
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
General ledger and/or payroll records
were not maintained, or expenses reported
in the FSRs exceeded expenses recorded
in the general ledger
Documentation to support selected
payments claimed under the grant was not
maintained
Insufficient explanations for variances in
payroll expenditures
Certain calculation errors were made by
subgrantee personnel
Inability to gain access to subgrantee
records
Documentation to support certain
matching costs were destroyed
Match amounts claimed are not properly
supported
   Subtotal
                                  Total
                        2.B. Summary of Questioned Cost<- Administrative and PDAT Grants



                                                                                           Consolidated Full
                                        Finding      Administrative                         Scope Audit -
              Finding                   Number          Grant           PDAT Grant           Commission
Questioned Claimed Costs
Documentation to support selected
payments claimed under the grant was
not maintained
Matching requirements were not met
Subtotal

Questioned Match
Match amounts claimed are not
properly supported
Subtotal
                                Total
REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING

We noted certain matters, described below, involving internal controls over financial
reporting that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. We believe the reportable conditions
identified as items 1 and 2 below are material weaknesses. These conditions were
considered in determining the nature, timing, and extent of the procedures to be
performed in our audit of the Schedules of Award Costs of the Commission for the period
January 28, 1994 to December 3 1,2000.

Our consideration of internal controls would not necessarily disclose all matters in
internal control over financial reporting that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also
considered to be material weaknesses. Reportable conditions involve matters coming to
our attention relating to significant deficiencies in the design or operation of the internal
controls, that, in our judgment, could adversely affect the Commission's ability to record,
process, summarize, and report financial data consistent with the assertions of
management in the Schedules.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control structure elements does not reduce to a relatively low level
the risk that misstatements, in amounts that would be material in relation to the financial
schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of
inherent limitations in internal control, misstatements due to error or fraud may occur and
not be detected.

The objective of our audit was not to provide assurance on the Commission's internal
controls over financial reporting. Consequently, we do not provide an opinion on internal
control over financial reporting.

The following paragraphs present reportable conditions identified during our incurred
cost audit of the Schedules of Award Costs and the unresolved reportable conditions that
were identified during a pre-audit survey conducted in 1999. A more detailed summary
of the status of reportable conditions as first reported in OIG Audit Report Number 00-
1l', Pre-Audit Survey Report of the Kentucky Commission on Community Volunteerism
and Sewice issued on June 20,2000, is presented as Exhibit G.




                          -


1
  For additional information, including the responses by KCCVS and the Corporation, see OIG Audit
Report #00-11;Pre-Audit Survey Report of the Kentucky Commission on Community Volunteerism and
Service, issued by the Corporation OIG.
Material Weaknesses

I . Grants and Program Management

The Kentucky Commission is responsible for evaluating whether its subgrantees comply
with legal, reporting, financial management and grant requirements and ensuring follow
through on issues of noncompliance. The Commission did not have a comprehensive
program to monitor the programmatic activity of all subgrantees to ensure adequate
attention was given to compliance issues and that documentation was retained as
evidence of compliance. We noted that, during the period audited, the Commission
experienced significant turnover and changed administrative entities. As a result, we
identified control weaknesses and instances of noncompliance resulting in significant
questioned costs.

In February 2001, we obtained the AmeriCorps member rosters from the National
Service Trust database for individual program years for each of the 11 Commission
AmeriCorps subgrantees selected for audit in order to select member files for testing.
The following subgrantee rosters (obtained from the Corporation and represented to us as
current) for the respective program years did not appear accurate or complete, or had not
been properly updated.

Subgrantee                                    Program Year and Exception
Simpson County Board of Education             1996-97 lists 1 member earning an award
                                              although that program year has ended.
                                              1997-98 excludes 2 members who were
                                              paid living allowances.
                                              1998-99 excludes 4 members who were
                                              paid living allowances and lists 1 member
                                              earning an award although that program
                                              year has ended.
                                              1999-2000 excludes 1 member who was
                                              paid a living allowance.
Kentucky State University                     1998-99 lists 4 members earning an award
                                              although the program has ended.
                                              1999-2000 lists 3 members earning an
                                              award although the program has ended.
Homeless and Housing- Coalition of            1999-2000 excludes 7 second year
Kentucky                                      members.
Eastern Kentucky University                   1994-95 excludes 2 members who were
                                              paid living allowances.
                                              1995-96 includes 2 1 1996-97 members and
                                              excludes 2 members who were paid living
                                              allowances.
                                              1997-98 has an incorrect start date for 2
                                              members, is missing completion dates for 7
                                              members, and excludes 8 members who
                                              were paid living allowances.
                                              1998-99 has an incorrect start date for 1
                                              member, is missing completion dates for 1 1
                                              members, and excludes 10 members who
                                              were paid living allowances.
                                              1999-2000 excludes 7 members who were
                                              paid living allowances.
                                              1996-97 lists 1 member earning an award
                                              although the program has ended.

The Corporation relies on the Commission and its subgrantees to maintain systems and
management controls that provide accurate information related to member service to the
National Service Trust. The numerous noncompliance issues related to member status
forms identified above and in the Report on Compliance indicate that the Commission
needs to take more responsibility for the accuracy and completeness of member status
reporting by its subgrantees to the Corporation. In addition, failure to provide accurate
member information to the Corporation could result in erroneous education awards being
issued and undermines the reliability of certain of the Corporation's GPRA statistics.

Further, during our audit work at individual subgrantees, we identified the following
internal control deficiencies, which indicated inadequate monitoring by the Commission:

   Inadequate segregation of accounting duties existed for a majority of the grant period
   at the following subgrantees - Christian County Public Schools, Northern Kentucky
   United Way, Homeless and Housing Coalition of Kentucky, Simpson County Board
   of Education, Kentucky State University and Kentucky River Foothills Development
   Council.
   The financial management system maintained by Simpson County Board of
   Education does not separately account for member living allowances and staff
   salaries.
   At Kentucky State University, certain bank reconciliations had been improperly
   completed, not all necessary correcting journal entries had been posted to the fiscal
   year 1998 and 1999 general ledgers, and vouchers and supporting data were not
   consistently being cancelled upon payment to prevent resubmission.
We recommend the Commission take the following actions to improve its grants and
program management processes.

   Complete the implementation of the recently developed policies and procedures to
   monitor the programmatic and financial activity of all subgrantees.
   Enhance its recently developed monitoring policies and procedures to include specific
   sampling guidelines for all areas of the monitoring tool and for the review of the
   validity of reported program accomplishments.
   Ensure that operating sites (i.e., the locations where service is performed) are visited
   during each subgrantee monitoring visit.
   Ensure that a person knowledgeable of financial management requirements
   accompanies Commission program personnel on each site visit to perform the
   financial monitoring activities.
   Ensure adequate attention is given to compliance issues which may not be addressed
   even if an audit in accordance with OMB Circular A-133, Audits of States, Local
   Governments and Non-profit Organizations, has been performed for any specific
   subgrantee.
   During site visits, the frequency of which should depend on the level of risk assessed
   by the Commission, ensure that subgrantees are compliant with revised guidance and
   are adequately following up on deficiencies communicated to them by the
   Commission.
   Ensure that current subgrantees establish procedures by which adequate segregation
   of accounting duties is maintained, systems are in place to ensure that expenses
   incurred can be accurately reported to the Corporation based on approved budget line
   items, systems are in place to track the number of hours members spend on training,
   and sufficient accounting controls over bank reconciliations, the posting of journal
   entries, and the cancellation of vouchers are implemented.
   Establish and implement timeframes for formal submission of site visit feedback to
   the subgrantee and for receipt of the subgrantee's corrective action plan if issues are
   identified.

    Financial Management and Reporting

The Commission is required to select organizations for award, administer Corporation
grant funds and monitor subgrantees for financial activities and compliance with laws,
regulations and provisions of grant awards. The Corporation's regulations describe
standards for financial management systems that must be maintained by State
Commissions. OMB Circulars also establish standards for monitoring, compliance
oversight, record retention, documentation and allowable costs.

As noted above and in Exhibit G, the 1999 pre-audit survey procedures revealed that the
Commission had minimal controls in place to provide reasonable assurance that grant
funds were administered according to Corporation and federal guidelines and inadequate
procedures for maintaining internal controls that provide for accurate, current, and
complete disclosure of financial and programmatic results.
Many of the weaknesses identified at the Commission during the pre-audit survey were
also apparent through exceptions identified for individual subgrantees of the Commission
and resulted in significant questioned costs. Subsequent to the pre-audit survey, the
Commission began to develop, and is still developing, formal procedures to improve
controls and ensure compliance with all applicable regulations. For example, the
Commission developed procedures that require each new Commission member and peer
reviewer to sign and date conflict of interest forms prior to commencement of their
duties. In addition, the Commission developed procedures that require all new applicants
to submit a form completed by their independent auditors certifying that they have the
fiscal capacity to administer the grant. However, we could not adequately follow-up on
the implementation of these new procedures because of the timing of their
implementation.

The following conditions, however, continue to exist and require corrective action:

   Lack of evidence of Financial Status Report (FSR) review, including matching
   recalculation.
   Late submission of FSRs.
   Improvements needed in the Commission's evaluating and monitoring system for
   subgrantees.

Further, during the incurred cost audit, we found the following additional internal control
deficiencies:

    No current accounting procedures manual exists for the Commission or for the State
    of Kentucky, Cabinet for Families and Children, which is the Commission's current
    administrative entity.
    The Commission does not track budget to actual expenses according to the approved
    Administrative and PDAT grant cost categories for each program year.
    The Commission did not track expenses related to funding received under the Interim
    PDAT, Disability and Unified State Plan grants.
    No support, nor methodology for maintaining support, for journal entries in the Grant
    Management Department exists. In the Grant Management Department, no journal
    entry support was maintained, except for brief general descriptions entered into the
    system.
    The Commission does not track what the interagency charges to the Commission
    represent, and the Financial Officer is generally not provided in advance with the
    dollar value of interagency expenses that are going to be charged to the grant.
    Although the Financial Officer does code the service requisition forms to the proper
    accounts, no prices are quoted by the internal service provider when the forms are
    submitted.
    The Commission does not prepare reconciliations which compare the actual amount
    of cash drawn down from the Department of Health and Human Services to the
    cleared accounts receivable (i.e., claimed expenses).
   As of April 5,2001, an available balance of $34,000 existed in MARS (i.e., the
   financial management system used by the State and the Commission) for the
   Kentucky State University AmeriCorps subgrant. However, this program was
   terminated by the Commission on January 30,2001.

We recommend that the Commission develop a comprehensive set of policies and
procedures for all grants received from the Corporation. These policies and procedures
should address all aspects of the Commission's financial activities, including the
accounting, reporting and monitoring of funds received and disbursed by the
Commission. Once developed, these policies and procedures should be immediately
implemented to ensure that day-to-day procedures are performed accurately and
consistently, thus minimizing the risk of Corporation funds being improperly disbursed.

We recommend the Corporation follow up with the Commission to ensure the new
procedures have been properly implemented and adequate corrective action is taken on
the unresolved conditions noted in the pre-audit survey report and on the additional
matters discussed above.

REPORT ON COMPLIANCE

The results of our tests of compliance disclosed the following instances of noncompliance
and related questioned costs as reflected in Exhibits A through E, for which the ultimate
resolution cannot presently be determined. It is the responsibility of the Corporation to
determine whether the questioned costs are allowed or disallowed. Questioned costs
identified were developed using either actual costs (in those instances that actual costs
were provided by the Commission and its subgrantees) or estimated costs (in those
instances that actual costs were not readily available).

AmeriCorps Grant

A. Compliance Findings Resulting in Questioned Costs

The specific amounts questioned related to the findings discussed below are included in
the Supplemental Schedules of Award Costs by subgrantee at Exhibits F-1 through F-13,
and in the Summary of Questioned Costs included as Note 2 to the Consolidated
Schedule of Award Costs. This Note reconciles the amounts identified as questioned
costs in the following paragraphs to the consolidated amounts of questioned costs
reflected in Exhibit A.

I . Lack of documentation

        a. Eligibility requirements were not met (Questioned Claimed Costs of
           $1,699,924, Questioned Match Amounts of $220,806 (other match amounts
           questioned in additional findings reported below), and Questioned Education
           Awards of $529,164).
    The following subgrantees failed to maintain sufficient documentation to verify that
    members met eligibility requirements. The AmeriCorps Special Provisions state, in part,
    that "the Grantee must maintain verifiable records which document each member's
    eligibility to serve based upon citizenship or lawful permanent residency, birth date, level
    of educational attainment, date of high school diploma or equivalent certificate (if
    attained). ..If a member does not have a high school diploma or its equivalent at the time
    of enrollment, the Grantee must maintain a record of the member's elementary or high
    school drop-out date, the member's written agreement to obtain a high school diploma or
    its equivalent before using the education award, and, if applicable, verification of the
    member's enrollment at an institution of higher education.. .
                                                                  7,




    Subgrantee                                  Member Files               Applicable program
                                                Lacking                    years
                                                Documentation1
                                                Sample Size

    Lacking Documentation For: Member file
             D


    Eastern Kentucky University*      I All                            1 1994-95 through 1997-98
  Lacking Documentation For: High school diploma, equivalent certificate or other
  reauired documentation
  Eastern Kentucky University*           29 of 29           1998-99 through 2000-0 1
  Northern Kentucky United Way*          10 of 10           1995-96
  Christian County Public Schools**      2ofll              1996-97
  Homeless and Housing Coalition of      1 of 52            1996-97 & 1997-98 (2
  Kentucky                                                  term member)
  Green River Area Development District 1 of 17             1998-99 & 1999-2000 (2
I                                      I                  I term member)
I Lacking- Documentation For: Proof of age     w


    Northern Kentucky United Way               1 7 o f 10              1 1995-96
1   Eastern Kentucky Universitv                1 1 of 29               1   1998-99

     *    Because of the significant
                           -         number of exceptions noted, we have questioned all
          member costs incurred for these subgrantees and all related s duck on Awards issued
          by the Corporation.

     **   All member costs for this subgrantee are questioned as a result of the issue discussed
          in finding #I b. Therefore, we did not include questioned member costs related to this
          subgrantee in finding # 1a.
       b. Documentation to support time and attendance records and proper
          authorization of timesheets was not evident, including lack of support for
          AmeriCorps members' terms of service (Questioned Claimed Costs of
          $384,034, Questioned Match Amounts of $6,544 (other match amounts
          questioned in additional findings reported below), and Questioned Education
          Awards of $298,398)

The AmeriCorps Special Provisions also require that each program must maintain records
to verify that the member successfully completed the program requirements with a
minimum of 1,700 hours of participation as a full-time member, 900 hours of
participation as a part-time member, or 300-900 hours of participation as a reduced part-
time member. Lack of documentation to support successful completion of hours of
service could ultimately result in questioned education awards.

Further, the AmeriCorps Special Provisions state that "time and attendance records must
be signed by both the member and by an individual with oversight responsibilities for the
member." They also require that any staff salaries and wages charged directly to a grant
or charged to matching funds must be supported by a signed time and attendance report
for each individual employee regardless of position. The member or employee's
signature represents acknowledgement that the hours reported reflect an accurate
depiction of the hours served for the program. A supervisor's signature indicates
approval and concurrence with the hours recorded by the memberlemployee.

The subgrantees listed below (a) could not locate member or staff timesheets for selected
pay periods or for entire program years, (b) could not provide timesheets that were signed
by the individual or an authorizing official for selected pay periods, or (c) did not
maintain required documentation such as all member timesheets/payroll reports to
support that the term of member service was properly completed to justify receipt of the
related education award.

Subgrantee                         Member Files         Applicable program
                                   Lacking              years
                                   Documentation1
                                       I
                                   Sample Size
Lacking Documentation For: Member Timesheets for Entire Service Period
Christian County Public Schools*   11 of 11             1995-96 & 1996-97
Northern Kentucky United Way**     10 of 10             1995-96
Lacking Documentation For: Approved Member Timesheets
Homeless and Housing Coalition of   1 of 52             1994-95
Kentucky
Lacking Documentation For: Service Hour Requirements
Simpson County Board of Education 43 of 74              1994-95 through 1998-99
Eastern Kentucky University**      3 of 11              1998-99 & 1999-2000
Subgrantee
                                        /   Member Files
                                            Lacking
                                                                   Applicable program
                                                                   years

                                   I Sample Size
Lacking Documentation For: Staff Timesheets for Entire Program Year(s)
Homeless and Housing Coalition of I Not applicable       / 1994-95
Kentucky
Eastern Kentucky University         Not applicable                 1994-95 & 1995-96
Kentucky State University           Not applicable                 1997-98
Lacking Documentation For: Approved Staff Timesheets
Homeless and Housing Coalition of 1 11 of 24                   1   1998-99 through 2000-01
Kentuckv                          I                            I
*    Because of the significant number of exceptions noted, we have questioned all
     member costs incurred for these subgrantees and all related education awards issued
     by the Corporation.

**   All member costs for this subgrantee are questioned as a result of the issue discussed
     in finding #la. Therefore, we did not include questioned member costs related to this
     subgrantee in finding #I b.

2. General ledger and/or payroll records were not maintained, or expenses reported in
   the FSRs exceeded expenses recorded in the general ledger (Questioned Claimed
   Costs of $646,572 and Questioned Match Amounts of $145,722).

The AmeriCorps General Provisions state that subgrantees must maintain adequate
supporting documents for every expenditure (federal and non-federal) and in-kind
contributions made under this grant. Costs must be shown in books or records (e.g., a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

Subgrantees must maintain financial management systems that include standard
accounting practices, sufficient internal controls, a clear audit trail and written cost
allocation procedures as necessary. Financial management systems must be capable of
distinguishing expenditures attributable to a grant from expenditures not attributable to a
grant. This system must be able to identify costs by programmatic year and by budget
category and to differentiate between direct and indirect costs or administrative costs.
Subgrantees' financial management responsibilities are detailed further in OMB Circular
A- 110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, and its
implementing regulations.

Christian County Public Schools
Christian County Public Schools did not retain its general ledger accounting records for
the period July 1 - September 30, 1997. Therefore, we were unable to test expenses
incurred during this time period.
    Simpson County Board of Education
    The general ledgers for program years 1994-95 and 1995-96 included hand written
    amounts and calculations and excluded payroll information. Therefore, we considered
    this documentation unreliable and questioned all costs related to those years.
    Additionally, claimed costs per the FSRs for program years 1995-96 and 1997-98
    exceeded total expenses recorded in the general ledger.

    Community Action of Southern Kentucky, Inc.
    Claimed costs per the FSRs for program year 1998-99 exceeded total expenses recorded
    in the general ledger.

    3. Documentation to support certain federal costs were destroyed in accordance with
       subgrantee record retention policies (Questioned Claimed Cost of $742,622).

    The following subgrantees were unable to provide documentation that supported the
    existence and/or reasonableness of non-payroll costs in certain years because the
    subgrantee had destroyed the records in accordance with its record retention policies.

/ Subgrantee                               / Costs Impacted / Applicable program
                                                                     years
    Morehead State University                  Health care,          1994-95 through 1996-97
1                                          1   training and      1                               I
                                               operational
    Northern Kentucky United Way               All non-payroll       1994-95
    Homeless and Housing Coalition of          All                   1996-97
1   Kentucky*
1   Eastern Kentucky University            I All non-payroll 1 1994-95 & 1995-96                 I
I   Eastern Kentucky University            I Travel              1 1996-97
    *   During program year 1996-97, this subgrantee's AmeriCorps program was
        administered by another entity because of the subgrantee's financial difficulties. No
        records related to that year were located.

    The AmeriCorps General Provisions state that subgrantees must maintain adequate
    supporting documents for every expenditure (federal and non-federal) and in-kind
    contributions made under this grant. Costs must be shown in books or records (e.g., a
    disbursement ledger or journal), and must be supported by a source document, such as a
    receipt, travel voucher, invoice, bill, in-kind voucher, or similar document. In addition,
    the subgrantee must retain and make available all financial records, supporting
    documentation, statistical records, evaluation data, member information and personnel
    records for 3 years from the date of the submission of the final Financial Status Report
    (SF 269A).

     4. Documentation to support selectedpayments claimed under the grant was not
        maintained (Questioned Claimed Cost of $1 12,429 and Questioned Match Amounts
        of $1 5,802).
 The following subgrantees were unable to provide documentation that supported the
 existence and/or reasonableness of selected payments claimed for reimbursement from
 the Commission:


 Category of Cost         Payee                           Amount        Program Year
 Health Care              SRC                             $2.01 1.33     1999-2000
 Health Care              Traci Gibson                      $109.59       1998-99
 Accident Insurance       Acordia of Northeast Ohio         $551.05       1998-99
 Training &               Shelly Kelley Marshall            $111.55       1998-99

I Training &          1 Renee Wester                  1    $280.00 1      1997-98
  Education
  Training &              Sherry Kelly Marshall            $448.28        1997-98
  Education
  Training &              Computer Professor               $600.00        1997-98
  Education
  Training &              Ladonna Murphy                   $360.00        1997-98
  Education
I Operational         I AT&T                                $79.50 1      1999-2000
  Operational             Judd's Office Products           $165.79         1998-99
  Operational             AT&T                             $109.25         1998-99
  Operational*            Cedarmore Baptist                $600.00         1997-98
                      I   Academy
 Operational*             Cedarmore Baptist
                          Academv

 Operational*           FAHE                              $1,051.20        1997-98
 Operational*           Mississippi Industries            $1,207.00        1997-98
 Operational*           HHCK                              $1,37 1.48       1997-98
 Operational*           HHCK                              $2,385.00        1997-98
 Omrational*            Cellular One                        $2 17.78       1997-98
 Operational*           HHCK                              $1,641.33        1997-98
 Operational*           Club by Doubletree                $5,200.16        1997-98
 Operational            Farmer's Bank                     $3,753.00        1994-95
 Operational*         I Subway                               $81.00 (      1997-98
 Operational*           HHCK                                $451.43        1997-98
 Operational*           HHCK                                $177.38        1997-98
 O~erational*           HHCK                                $165.00        1997-98
 Operational*           AT&T                                $181.58        1997-98
 Operational*           Lexington Herald Leader             $176.80        1997-98
 Operational*           Alan Dahl                           $407.87        1997-98
 Operational*           Laura Mattingly                     $510.34        1997-98
 Evaluation           1 Evan Gay                          $1,500.00 1      1994-95
  Category of Cost       Payee                            Amount         Program Year
  Evaluation             HHCK                             $2,500.00         1997-98
  Administration         HHCK                             $5,847.50         1997-98
  Administration         Charles T. Mitchell Co.          $2.000.00         1997-98        J

  Administration         Philadelphia Insurance            $1i036.60        1997-98
  Administration         HHCK                             $1,143.12         1997-98
  Administration         HHCK                              $1.897.19        1997-98
I Administration       1 Louisville Courier Journal   I      $254.94 1      1997-98

 *   Our sample procedures covered 70% of 1997-98 operational expenses. The
     subgrantee could not provide support for 55% of the items sampled in this category.
     Because of this large non-statistical error rate, we estimated that 55% of the
     unsampled items would also be unsupported, resulting in additional estimated
     questioned costs of $5,620.

 Eastern Kentucky University
 Category of Cost       Payee                             Amount         Program Year
 Services               Hadley Carvin Wildon               $243.90          1998-99
 Training               Points of Light Foundation         $350.00          1998-99

 Kentucky State University



 Postage                William Whitaker                     $52.45         1997-98
 Postage                Federal Express Corp.                $30.00         1997-98
 Office Supplies        Lynn Blueprint & Supplies           $137.54         1997-98
 Office Sumlies         Lvnn Bluemint & S u ~ ~ l i e s     $137.54         1997-98
 Teaching               Walmart                             $100.00         1997-98
 Teaching               Walmart                              $68.66         1997-98
 Other Misc.            Parks Federal Credit                $200.00         1997-98


  Category of Cost               Payee                    Amount         Program Year
 Advertising            Dailv News                         $672.66*         1998-99
 *   Invoice supported a total amount of $521.40. Questioned costs were calculated by
     splitting the excess between federal and match based on the approved budget.

 Simpson County Board of Education
 Category of Cost       Payee                             Amount         Program Year
 Other member           Susan Radley Brown                $1,500.00         1996-97
 support
 Operational            TMC of Southern                      $169.29        1996-97
                        Kentucky
I Category of Cost        1 Payee                       1   Amount I       Program Year        1
  Operational               VEMAC Travel                      $155.00         1996-97
  Operational               Southern School Support           $298.00         1996-97
  Operational               Apple Computer                   $2,168.00        1996-97
  Operational               Pizza Hut                         $173.00         1996-97
  Overational               Mike Houston                      $764.40         1996-97
  Operational               Unknown                           $945.12         1996-97
  O~erational               Mike Houston                      $726.44         1996-97
I Operational             I Barnes & Noble                   $1,086.86 1      1997-98
  Operational               Ingram Library Services          $4,476.76        1997-98
  Operational               Zero Old Projects               $42,355.65        1997-98
  O~erational- Travel       Veronica Gold                      $334.50        1998-99
I Operational -           1 Premier Net Inc.            1    $4,543.05 1      1998-99          I
  Equipment
  Operational                 Executive Inn                   $527.70         1998-99
  Operational -               Quill Corporation              $1,243.00        1998-99
  Suuulies
  Operational                 Executive Inn                  $2,384.43        1998-99
  Operational -               Davies County                  $3,981.16        1998-99
  telephone

    Simpson County Board of Education also charged six expenses to the AmeriCorps
    program that we either determined were unrelated to the program or for which we could
    not determine that the expenses were incurred solely for the program. The related
    amounts in expenditures selected for review were as follows:

    Category of Cost          Payee                         Amount         Program Year
    Operational               Delta Orlando                 $378.85**         1996-97
    Operational -             Quill Corporation              $7,261.55        1998-99

( Operational -            ( Quill Corporation          1      $400.861       1998-99
    Supplies
    Operational -             Quill Corporation              $1,124.32        1998-99
    Supplies
    Operational -             Quill Corporation                $788.32        1998-99
    Supplies
    Operational -             Quill Corporation                $779.44        1998-99
    Suuulies

    **   Charges of $93.05 on corresponding hotel bill dated May 7, 1997 do not appear to be
         business-related.

    The AmeriCorps General Provisions state that subgrantees must maintain adequate
    supporting documents for every expenditure (federal and non-federal) and in-kind
    contributions made under this grant. Costs must be shown in books or records (e.g. a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

5. Administrative costs in excess of the maximum Corporation share were claimed
   (Questioned Claimed Costs of $24,693).

The AmeriCorps General Provisions indicate that administrative costs cannot exceed 5%
of total Corporation funds actually expended under the award.

The following subgrantees claimed administrative costs in excess of this maximum
percentage:

Subgrantee                                        Applicable program
                                                  vears
Northern Kentucky United Way                      1995-96
Green River Area Development District             1999-2000
Community Action of Southern Kentucky, Inc.       1997-98 & 1999-2000
Simpson County Board of Education                 1999-2000
Community Action Council for Lexington, et a1     1996-97 & 1997-98

6. Funds were allocated to diflerent budget cost categories without prior approval,
   when required (Questioned Claimed Costs of $14,382).

The following subgrantees made unallowed departures from the approved budget without
obtaining prior written approval:

Subgrantee                             Category from        Applicable program
                                       where funding        years
                                       was reduced
Kentucky State University              Member support
                                       costs
                                       Training &
                                       education
Homeless and Housing Coalition of      Not applicable -
Kentucky                               relates to
                                       absorption of
                                       admin costs
                                       above the
                                       approved budget
Eastern Kentucky University            Member support
                                       costs
                                       Member support
                                       costs
                                       Member support
                                       costs
Morehead State University              Member support
                                       costs
                                       Training &
                                       education
                                       Training &
                                       education

The AmeriCorps Provisions state that the subgrantee must obtain the prior written
approval of the Corporation before deviating from the approved budget in various ways,
including:

           Reallocation of Funds from the "Member Support Cost" category to other
           categories of the approved budget. The specific line items covered by this
           subclause are:
           a.      Living Allowance
           b.      FICA, worker's compensation, and unemployment insurance and
           c.      Healthcare
           (1994 - 2000 Provisions)
           Budgetary transfers to absorb administrative costs above the amount specified
           in the approved budget, if below the 5% maximum limit (1994 - 1999
           Provisions).
           Within the "Other Member Costs" category, the subgrantee may not decrease
           funds budgeted for training and education without prior Corporation approval
           (1995 - 1999 Provisions).

7. Subgrantee personnel could not provide suficient explanationsfor variances in
   payroll expenditures (Estimated Questioned Claimed Cost of $22,264 and Estimated
   Questioned Match of $1 7,470).

During our payrolVliving allowance analytical procedures, we estimated such costs based
on the number of members, the living allowance for the year, length of member service
period, number of staff, the pay rate for staff, and employment term for staff. We
considered a 10%variance between our estimate and actual claimed costs reasonable.
We inquired of subgrantee personnel about any amounts in excess of a 10% variance, and
when adequate explanations could not be provided, we considered the excess over 10% to
be estimated questioned cost if actual exceeded our estimate.
  Simpson County Board of Education - member/stafSpayroll                                  I
I Estimated amount        1 Actual amount         ( Applicable program years               1
  $516,915                  $577,533                1998-99
  $155,295                  $192,380                2000-0 1 (first quarter)

 Eastern Kentucky University - staff payroll
 Estimated amount         Actual amount                    Applicable program years
 $25,372                  $32,336                          2000-0 1 (first quarter)

 The AmeriCorps General Provisions state that subgrantees must maintain adequate
 supporting documents for every expenditure (federal and non-federal) and in-kind
 contributions made under this grant. Costs must be shown in books or records (e.g., a
 disbursement ledger or journal), and must be supported by a source document, such as a
 receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

 8. Certain calculation errors were made by subgrantee personnel (Questioned Claimed
    Costs of $22,250 and Questioned Match of $3,284).

 During our audit, we identified certain calculation errors made by subgrantee personnel
 related to the preparation of FSRsIreimbursement requests and payroll, as follows:

  Kentucky State University
  Error identified                                      Applicable program years
  Mathematical error in schedule supporting
                                    --
                                              the       1997-98
  FSWreimbursement request
  Excessive FICA rate used in schedule                  1997-98 & 1998-99
  supporting the FSWreimbursement request
  Incorrect allocation made to identify federal         1998-99
I and match ex~enses                                I
  Community Action of Southern Kentucky, Inc.
  Error identified                                      Applicable program years
  Excessive rate used for health insurance              1998-99
1 benefits
 Under the AmeriCorps Provisions, the subgrantee must maintain adequate supporting
 documents for its expenditures (federal and non-federal) and in-kind contributions made
 under this grant. Costs must be shown in books or records (e.g., a disbursement ledger or
 journal), and must be supported by a source document, such as a receipt, travel voucher,
 invoice, bill, in-kind voucher, or similar document. In addition, the subgrantee must
 provide and account for the matching funds as agreed upon in the approved application
 and budget.
9. Matching requirements were not met (Questioned Claimed Costs of $1,496,815).

According to the AmeriCorps Provisions, the grantee must provide and account for the
matching funds consistent with the approved application and budget. The Corporation
requires, at a minimum, the following aggregate matches:

i)     Member support costs of 15% - including living allowance, FICA,
       Unemployment Insurance, Worker's Compensation and Healthcare; and
ii)    Program operating costs of 33% (25% prior to program year 1996-97) - including
       other member costs, staff, operating costs, internal evaluation and administration.

After taking questioned costs noted elsewhere in this incurred cost audit into
consideration, the following subgrantees did not meet matching requirements for certain
program years:

Subgrantee                               Applicable          Applicable program
                                         budget/F'SR cost    years
                                         section
Morehead State University                Both                1994-95
                                         Both                1995-96
                                         Both                1996-97
                                         Sections B-F        1997-98
                                         Sections B-F        1998-99
                                         Sections B-F        1999-2000
                                         Section A           2000-0 1 (first auarter)
Christian County Public Schools          Both
                                         Both
Northern Kentucky United Way             Sections B-F
                                                             combined (could not test
                                                             years separately)
Green River Area Development             Section A           1998-99
District                                 Section A
Homeless and Housing Coalition of        Both
Kentucky                                 Sections B-F
                                         Section A
Simpson County Board of Education        Sections B-F
                                         Both
                                         Both
                                         Both
                                         Section A            2000-01 (first quarter)
Eastern Kentucky University              Sections B-F         1996-97
                                         Sections B-F         1997-98
                                         Both                 1998-99
                                         Both                 1999-2000
                                         Section A            2000-01 (first quarter)
 Kentucky State University                   Both              1997-98
                                             Both              1998-99
 Community Action Council for                Sections B-F      1995-96
 Lexington, et a1                            Sections B-F      1997-98
                                             Sections B-F      1998-99

 10. Documentation to support certain matching costs were destroyed (Questioned Match
     of $1,189,270).

 The following subgrantees were unable to provide documentation that supported the
 existence andlor reasonableness of matching costs in certain years because the
 subgrantees had destroyed the records in accordance with their record retention policies.

I Subgrantee                             I Applicable program
                                         I years
  Morehead State Universitv              1 1995-96
[ Christian County Public Schools        1 1995-96 & 1996-97
  Eastern Kentucky University                1994-95, 1995-96 & 1996-
                                             97 (travel only)
  Northern Kentucky United Way               1994-95 & 1995-96
  Homeless and Housing- Coalition of         1996-97
I Kentuckv*                              I                              I
 *   During program year 1996-97, this subgrantee's AmeriCorps program was
     administered by another entity because of the subgrantee's financial difficulties. No
     records related to that year were located.

 The AmeriCorps General Provisions state that subgrantees must maintain adequate
 supporting documents for every expenditure (federal and non-federal) and in-kind
 contributions made under this grant. Costs must be shown in books or records (e.g., a
 disbursement ledger or journal), and must be supported by a source document, such as a
 receipt, travel voucher, invoice, bill, in-kind voucher, or similar document. In addition,
 the subgrantee must retain and make available all financial records, supporting
 documentation, statistical records, evaluation data, member information and personnel
 records for 3 years from the date of the submission of the final Financial Status Report
 (SF 269A).

 11. Match amounts claimed are not properly supported (Questioned Match of $972,040).

 Homeless and Housing Coalition of Kentucky
 The Homeless and Housing Coalition of Kentucky could not provide support for in-kind
 match expenses for program years 1994-95 and 1995-96. Therefore, we questioned all
 such expenses.
Simpson County Board of Education
Match expenses reported on Simpson County Board of Education's FSRs exceed the
amounts recorded in the general ledger in program years 1996-97 through 1999-2000.
Subgrantee personnel could not provide an explanation or support for these discrepancies.
Therefore, we questioned all excess amounts reported.

Eastern Kentucky University
Eastern Kentucky University's FSRs for program year 1996-97 through the first quarter
of program year 2000-01 included unsupported match expenses. Therefore, we
questioned all such expenses.

The AmeriCorps General Provisions state that subgrantees must maintain adequate
supporting documentation for every expenditure (federal and non-federal) and in-kind
contributions made under this grant. Costs must be shown in books or records (e.g., a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

B. Other Compliance Findings

12. Lack of documentation

           Criminal record check

The following subgrantees enrolled members who required a criminal record check;
however, sufficient documentation to support that a criminal record check was conducted
was not maintained. The AmeriCorps Special Provisions require that programs with
members or employees who have substantial contact with children (as defined by state
law) or who perform service in the homes of children or individuals considered
vulnerable by the program shall, to the extent permitted by state and local law, conduct
criminal record checks. The AmeriCorps Provisions require that this documentation be
maintained within member or employee files.

Subgrantee                                 Member files           Applicable program
                                              lacking                    years
                                          documentation1
                                            sample size
Christian Countv Public Schools                1 of 11                  1995-96
Eastern Kentuckv Universitv             1      1 of 29   I              2000-0 1
Kentucky State University                      5 of 15                  1997-98

           Position descriptions

The AmeriCorps Special Provisions require that the subgrantee develop member position
descriptions that provide for direct and meaningful service activities and performance
criteria that are appropriate to the skill level of members. Activities may not include
clerical work, research, or fund raising activities unless such activities are incidental to
the member's direct service activities. The subgrantee
                                                -      must ensure that each member has
sufficient opportunity to complete the required number of hours to qualify for a post-
service education award. In planning for the member's term of service, the subgrantee
must account for holidays and other time off, and must provide each member with
sufficient opportunity to make up missed hours.

Subgrantee                               Member files           Applicable program
                                            lacking                    years
                                        documentation/
                                          sample size
Morehead State University
Homeless and Housing Coalition of
Kentuckv
                                             2 of 57
                                             3 of 52       1          2000-0 1
                                                                1998-99 & 1999-2000

Community Action of Southern                 3of 11             1998-99 & 1999-2000
Kentucky, Inc.
Simpson County Board of Education           26 of 74           1994-95 through 2000-0 1
Kentuckv State Universitv                   4of 15              1998-99 & 1999-2000

           Member contracts

The AmeriCorps Special Provisions require that the subgrantee ensure that all members
sign contracts that, at a minimum, stipulated the following:

           The minimum number of service hours and other requirements (as developed
           by the program) necessary to successfully complete the term of service and to
           be eligible for the education award;
           Acceptable conduct;
           Prohibited activities;
           Requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.);
           Suspension and termination rules;
           The specific circumstances under which a member may be released for cause;
           The position description;
           Grievance procedures; and
           Other program requirements.

The following subgrantees failed to maintain documentation to support
                                                                  --  that members had
signed contracts that included all required elements noted above.

 Subgrantee                           Member files              Applicable program
                                         lacking                       years
                                     documentation/
                                       sample size
I Lacking Documentation For: Signed Member Contracts
  Morehead State University               3 of 57                1995-96 & 2000-01
  Northern Kentucky United Way           10 of 10                     1995-96
Homeless and Housing- Coalition of    1      14 of 57                  1994-95
Kentuckv                              I                    I
Simpson County Board of Education            12 of 74          1994-95, 1996-97, & 1997-
                                                                          98
Kentuckv State Universitv                    3of 15              1997-98 & 1999-2000

Lacking Documentation For: Member Contracts That Include All Required Elements
Christian County Public Schools        1 of 11                 1995-96
Community Action of Southern          11 of 11          1997-98 through 1999-
Kentucky, k c . (specifically,        I                    I     2000-
prohibited activities)
Eastern Kentucky University           29 of 29         1998-99 through 2000-0 1
(specifically, grievance procedures)
Kentucky State University              3of 12                  1997-98
(specifically, prohibited activities)

           Orientation

The AmeriCorps Special Provisions require that, consistent with the approved budget, the
subgrantee must provide members with the training, skills, knowledge and supervision
necessary to perform the tasks required in their assigned project positions, including
specific training in a particular field and background information on the community
served. The subgrantee must conduct an orientation for members and comply with any
pre-service orientation or training required by the Corporation. This orientation should
be designed to enhance member security and sensitivity to the community. Orientation
should cover member rights and responsibilities, including the program's code of
conduct, prohibited activities, requirements under the Drug-Free Workplace Act (41
U.S.C. 701 et seq.), suspension and termination from service, grievance procedures,
sexual harassment, other non-discrimination issues, and other topics as necessary.

The following subgrantees failed to maintain documentation to support
                                                                --    that an orientation
was conducted for enrolled members.

Subgrantee                                 Member files          Applicable program
                                              lacking                   years
                                          documentation/
                                            sample size
Christian County Public Schools               11 of 11            1995-96 & 1996-97
Northern Kentucky United Way                  10 of 10                 1995-96
Homeless and Housing Coalition of             15 of 57                 1994-95
Kentucky
Community Action of Southern                 2of 11              1998-99 & 1999-2000
Kentuckv. Inc.                        I                    I
I Simpson County Board of Education I          36 of 74      1   1994-95 through 1996-97    1
                                                                       & 1998-99
 Kentucky State University                     15 of 15           1997-98 through 1999-
                                                                           2000

            Member start and end dates/location of member's service

 The following subgrantees failed to maintain required documentation on member start
 and end dates or on a member's location of service and project assignment. The
 AmeriCorps Special Provisions require that the subgrantee maintain verifiable records
 documenting each member's participation, start date and end date, hours of service per
 week, location of service activities and project assignment.

 Subgrantee                                  Member files         Applicable program
                                               lacking                   years
                                            documentation1



 Lexington, et a1                                                          2000
 Simvson Countv Board of Education      1      74 of 74          1994-95 through 2000-0 1

            Mid-term and end-of-term evaluations

 The following subgrantees could not locate mid-term and end-of-term evaluations for
 certain members that were selected for review. The AmeriCorps Provisions require that
 each subgrantee conduct at least a mid-term and end-of-term written evaluation of each
 member's performance, focusing on such factors as:

    - Whether the member has completed the required number of hours;
    - Whether the member has satisfactorily completed assignments; and
    - Whether the member has met other performance criteria that were clearly
        communicated at the beginning of the term of service.

 Subgrantee                             I
                                     Member files            I
                                                       Applicable program

                                        I
                                        lacking
                                    documentation/
                                      sample size
                                                                years


 Lacking Documentation For: Mid-Term and End-of-Term Evaluations
 Christian County Public Schools         1 of 11               1995-96
 Northern Kentucky United Way           10 of 10              1995-96
 Homeless and Housing Coalition of      29 of 62      1994-95 through 1997-98
 Kentucky                                                   & 1999-2000
 Community Action Council of            26 of 26       1995-96 through 1999-
 Lexington, et a1                                               2000
I Simpson county Board of Education 1         53 of 74      11994-95, 1995-96, 1998-     1
                                                                  99, & 2000-01
 Kentucky State University                    9of 15          1997-98 through 1999-
                                                                       2000
 Lacking Documentation For: Mid-Term          End-of-Term Evaluations
 Eastern Kentuckv Universitv      I           6 of 29     I 1998-99 & 1999-2000
           Enrollment forms, change of status forms, and exidend-of-term-of-seervi
           forms

 Certain standard forms required to be completed for members, as well as the timeframe
 for submission to be adhered to, were not complied with by the following subgrantees.
 The ArneriCorps Special Provisions require the following documents from the grantee:

    - Enrollment Forms. State Commissions and parent organizations must submit
      member enrollment forms to the Corporation no later than 30 days after a member
      is enrolled.
    - Change of Status Forms. State Commissions and parent organizations must
      submit member change of status forms to the Corporation no later than 30 days
      after a member's status is changed. By forwarding member change of status
      forms to the Corporation, State Commissions and parent organizations signal their
      approval of the change.
    - ExitfEnd-of-Term-of-ServiceForms. Programs must submit member exitlend-
      of-term-of-service forms to the Corporation no later than 30 days after a member
      exits the program or finishes hislher term of service early.

 Subgrantee                                 Member files        Applicable program
                                               lacking                 years
                                           documentation/
                                             sample size

 Lacking Documentation For: Enrollment Form
 Morehead State University               4 of 57                      1994-95
 Northern Kentucky United Way            10 of 10                     1995-96
                                       I                    I

 Lacking Documentation For: Approved and Dated Enrollment Form
 Homeless and Housing Coalition of      22 of 62          1994-95 & 1995-96
 Kentucky
 Kentucky State University              2of 15                1999-2000
                                       I                    I

 Lacking Documentation For: Timely Submission of Enrollment Form
 Homeless and Housing
                    - Coalition of I    2 of 62           1995-96 & 1996-97
 Kentucky
 Community Action of Southern           3of 11                 1999-2000
 Kentuckv. Inc.
Subgrantee                                   Member files         Applicable program
                                                lacking                  years
                                            documentation1
                                              sample size


Lacking Documentation For: Exit/End-of-Term Form
Morehead State University               4 of 57
Christian County Public Schools         3of 11
Northern Kentuckv United Wav            10 of 10
Homeless and Housing Coalition of       3 of 55



                                                                 1996-97 through 1999-
Lexington, et a1                                                         2000
Eastern Kentucky University                     2 of 29
                                        I                    I

Lacking Documentation For: Approved and Dated Exit/End-of-Term form
Homeless and Housing Coalition of      13 of 55          1995-96 & 1996-97
Kentucky
Kentucky State Universitv               1 of 15               1998-99

Lacking Documentation For: Timely Submission of Exit/End-of-Term form
Homeless and Housing Coalition of     11 of 55         1994-95, 1995-96 & 1999-
Kentucky                                                         2000
Community Action of Southern           3ofll                  1999-2000
Kentucky, Inc.
Kentucky State University              4of 15             1997-98 & 1998-99

           Health Insurance Coverage

The AmeriCorps Special Provisions require that subgrantees provide a health care policy
to those members not otherwise covered by a health care policy at the time of enrollment
into the AmeriCorps program, or to those members who lose coverage during their term
of service as a result of participating in the program or through no deliberate act of their
own. We identified documentation exceptions to this requirement at the following
subgrantees:
Subgrantee                              /        Member files    1         Applicable program
                                                    lacking                       years
                                                documentation1
                                                  sample size

Lacking Documentation For: Health insurance waiver form
Morehead State University               19 of 45                 1
                                                         1994-95 through 1999-
                                                                  2000
Community Action Council of       I      9 of 45      1 1995-96 through 1997-98
Lexington, et a1
Simpson County Board of Education        7 of 45        1995-96 through 1997-98

            W-4 Forms

According to the AmeriCorps Provisions, the grantee must withhold federal personal
income taxes from member living allowances, requiring each member to complete a W-4
form at the beginning of the term of service and providing a W-2 form at the close of the
tax year. The grantee must comply with any applicable state or local tax requirements.
At the following subgrantees, we identified member files that did not include W-4 forms:

 Subgrantee                                      Member files              Applicable program
                                                    lacking                       years
                                                documentation1
                                                  sample size
 Morehead State University                           6 of 45             1994-95, 1995-96, 1996-97
                                                                               & 1999-2000
 Community Action Council of                        6 of 45                       1995-96
I Lexington, et a1                          I                        I                               I
             Financial Status Reports (FSRs) and Progress Reports

 According to the AmeriCorps Provisions, beginning in program year 1999-2000, FSRs
 are due May 1 for the period ending March 3 1 and October 3 1 for the period ending
 September 30. A grantee properly utilizing the Web-Based Reporting System (WBRS)
 meets financial reporting requirements when the grantee uses that system to submit
 reports within the approved time frames. A subgrantee must meet the submission
 deadlines set by the grantee for accurate and timely reporting. Prior to program year
 1999-2000, FSRs were due 30 days after the end of each calendar quarter.

 A subgrantee completing the final year of its grant must submit, in lieu of the last semi-
 annual FSR, a final FSR that is cumulative over the entire project period. This FSR is
 due within 90 days after the end of the project period.
A grantee completing the final year of its grant must submit, in addition to the Progress
Report due on October 3 1, a final Progress Report that is cumulative over the entire
project period. This progress report is due within 90 days after the close of the grant.

The AmeriCorps Provisions also require that each grantee set its own subgrantee
reporting requirements consistent with its need for timely and accurate reports. As such,
the Commission required its subgrantees to submit quarterly progress reports within 30
days of the end of the calendar quarter.

The following subgrantees did not maintain copies of FSRs or progress reports, the FSR
or progress report was not dated, or the reports were not submitted timely.

Subgrantee                                          Missing reports /sample
                                                              size

Lacking Documentation For: FSRs
Northern Kentucky United Way                                  7of8
Homeless and Housing Coalition of Kentuckv                   4of 12
Eastern Kentucky University                                  4of 14
Simpson County Board of Education**                     Only 2 FSRs were
                                                       located for 1994-95

Lacking Documentation For: Timelv Submission of FSR
Green River Area Development District               1 of 12
Communitv Action Council for Lexington. et a1       1 of 10
Homeless and Housing Coalition of Kentucky           2of8
Kentucky State University*                           5of8
Sim~sonCountv Board of Education**                  2 of 32

       -
Lacking Documentation For: FSR submission date
Christian County Public Schools                                lof8
Eastern Kentucky University                                   1 of 10
Simmon Countv Board of Education**                            8 of 32

Lacking Documentation For: Final FSRs and final progress reports
Green River Area Development District                All missing
Community Action of Southern Kentucky, Inc.          All missing
Eastern Kentucky University                          All missing
Simpson County Board of Education                    All missing
Kentucky State University                            All missing
1 Lacking Documentation For: Progress r e ~ o r t                                    1
    Northern Kentucky United Way                               None located
    Community Action Council for Lexington, et a1                 2of2
    Homeless and Housing Coalition of Kentucky                   6 o f 12
    Kentucky State University*                                    2of8

    Lacking Documentation For: Progress report submission date
    Community Action of Southern Kentucky, Inc. I          9of 12
    Community Action Council for Lexington, et a1          8 of 10
    Kentucky State University                               4of6

    *    In addition, Kentucky State University did not submit any FSRs or progress reports
         for program year 1999-2000.

    **   Simpson County Board of Education submitted monthly FSRs for program years
         1994-95 through 1997-98. Therefore, our sample size was significantly larger for this
         subgrantee as compared to other subgrantees that only submitted quarterly FSRs.


    13. Expenses recorded in the general ledger exceeded expenses reported on the FSRs.

    When compiling or reviewing the Schedules of Award Costs for the following
    subgrantees, we identified unexplained excesses of expenses recorded in the general
    ledger over expenses reported on the FSRs:

    Subgrantee                                            Applicable program years
    Christian County Public Schools                       1995-96 & 1996-97
    Northern Kentucky United Way                          1995-96 (cumulative amount for
I                                                       I both ~ r o ~ r avears)
                                                                           m
    Simpson County Board of Education                     1994-95, 1996-97 and 1999-
                                                          2000

    According to the AmeriCorps Provisions, subgrantees must maintain financial
    management systems that include standard accounting practices, sufficient internal
    controls, a clear audit trail and written cost allocation procedures as necessary. Financial
    management systems must be capable of distinguishing expenditures attributable to a
    grant from expenditures not attributable to a grant. This system must be able to identify
    costs by programmatic year and by budget category and to differentiate between direct
    and indirect costs or administrative costs. Grantees' financial management
    responsibilities are detailed further in OMB Circular A-102, Uniform Administrative
    Requirements for Grants and Agreements with State and Local Governments, or A- 110,
    UniformAdministrative Requirements for Grants and Agreements with Institutions of
    Higher Education, Hospitals, and Other Non-Profit Organizations, and their
    implementing regulations, as applicable.
14. Exceptions to member living allowance requirements.

Eastern Kentucky University
This subgrantee paid members less than the minimum living allowance in program year
1997-98.

Community Action Council for Lexington, et a1
This subgrantee paid members on an hourly basis in program year 1995-96.

According to the AmeriCorps Provisions, a subgrantee must provide a living allowance
to full-time members. The Corporation will only fund up to 85% of the minimum living
allowance, which was $8,340 in program year 1997-98. In addition, programs must not
pay a living allowance on an hourly basis, because the allowance is not a wage and
should not fluctuate based on the number of hours members serve in a given time period.
Programs should pay the living allowance in increments such as weekly or bi-weekly.

Given the age of these exceptions and the lack of more recent exceptions of a similar
nature, no specific recommendation is considered necessary.

15. Other exceptions to matching requirements.

The following two subgrantees did not use all program revenue earned in each program
year to fund match expenses of that year:

    Simpson County Board of Education
    Homeless and Housing Coalition of Kentucky

According to the AmeriCorps Provisions, "Income earned as a direct result of the
Program's activities during the award period will be retained by the Grantee and used to
finance the non-Corporation share of the Program."

In addition, the Homeless and Housing Coalition of Kentucky could not provide
supporting documentation for 9 of 57 cash contributions selected for testing. However,
because there is not always a direct correlation between cash contributions received and
match expenses claimed, we have not questioned the related match amounts. However,
according to the AmeriCorps Provisions, contributions, including cash and third party in-
kind, must be verifiable from the subgrantee's records.

       Recommendations Related to the AmeriCorps Grant

Except as othenvise noted, for all compliance findings and questioned costs discussed
above related to the AmeriCorps grant, we recommend the following:

    The Corporation should follow up with the Commission to determine whether the
    questioned amounts should be disallowed and recovered.
   The Corporation should issue guidance to clarify what is meant by a final FSR to
   ensure that subgrantees understand when the 3 year retention period specified in the
   AmeriCorps Provisions begins.
   The Commission should provide additional guidance to existing subgrantees on
   record retention and documentation standards for such items as eligibility, time
   sheets, member service hours, AmeriCorps roster updates on member status, other
   claimed costs submitted for reimbursement, matching costs reported, and
   contributions received. The Commission should then verify subgrantee compliance
   with this guidance during periodic site visits.
   The Commission should enhance its policies and procedures for review of subgrantee
   member support and program operating matching requirements to ensure compliance.
   The Commission should ensure that current subgrantees have developed and
   implemented procedures to ensure that administrative costs claimed do not exceed the
   maximum percentage allowable in each program year and to ensure that they receive
   prior written approval for budgetary transfers, when required.
   The Commission should ensure that current subgrantees have developed and
   implemented periodic budget to actual monitoring procedures for the AmeriCorps
   grant to ensure costs charged against it are reasonable given the amount of the grant
   period that has expired.
   The Commission should ensure that its current subgrantees have a process in place to
   compare earned program revenue to claimed matching expenditures for each program
   year to ensure that all earned program revenue is used for program purposes during
   the program year.
   The Commission should require existing subgrantees to document and adhere to file
   maintenance procedures that will ensure compliance with the AmeriCorps Provisions.
   Procedures should include, where applicable, a checklist for all required
   documentation, a training program for personnel who are responsible for maintenance
   of member files, and a periodic review process where selected member files are
   checked for compliance with documented procedures. The Commission should then
   verify subgrantee compliance with these file maintenance procedures during periodic
   site visits.

Learn & Serve Grant

C. Compliance Findings Resulting in Questioned Costs

The specific amounts questioned related to the findings discussed below are included in
the Consolidated Schedule of Award Costs at Exhibit B and in the Summary of
Questioned Costs included as Note 2 to the Consolidated Schedule of Award Costs. This
Note reconciles the amounts identified as questioned costs in the following paragraphs to
the consolidated amounts of questioned costs reflected in Exhibit B.
16. Inability to gain access to subgrantee records (Questioned Claimed Costs of $50,215
    and Questioned Match of $13,500)

In March 2001, the Commission contacted MicroCity to inform the subgrantee of
KPMG's audit and to request that access to program documents be provided. Subsequent
to that notification, we contacted the MicroCity program director four times to arrange a
time to perform audit fieldwork. On the final call, the program director indicated that she
did not believe she would be ready for our visit in the near future. Based on this
information, we explained the consequences of not allowing us to do our work (i.e., we
would question all costs). We received no further response from this subgrantee.

17. Matching requirements were not met (Questioned Claimed Costs of $4,118).

After taking other costs questioned as part of this incurred cost audit into consideration,
the Kentucky River Foothills Development Council did not meet matching requirements
in program years 1994-95, 1995-96 and 1998-99.

The Learn & Serve Provisions state that the subgrantee must provide and account for the
matching funds as agreed upon in the approved application and budget. All programs are
encouraged to raise some funds from the private sector, i.e., non-federal funds.

18. Match amounts claimed are not properly supported (Questioned Match of $3,755).

The Kentucky River Foothills Development Council could not provide supporting
documentation for claimed match expenses for program year 1998-99. In addition, no
supporting documents were located for 1 of 11 in-kind match expenses selected for
testing (1995-96, contributor - volunteer services, $607).

According to the Learn & Serve Provisions, the subgrantee must maintain adequate
supporting documents for it expenditures (federal and non-federal) and in-kind
contributions made under this grant. Costs must be shown in books or records (e.g., a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

D. Other Compliance Findings

19. Submission of FSRs and progress reports

For the Kentucky River Foothills Development Council, we could not verify the timely
submission of FSRs for the first 3 program years (1994-95, 1995-96, and 1996-97) as
neither the subgrantee nor the Commission possessed copies. Only one cumulative FSR
(for the period ending August 3 1, 1997) could be located. In addition, the Kentucky
River Foothills Development Council did not submit a final FSR or progress report.
According to the Special Provisions, Learn and Serve America: School-Based Programs,
subgrantees must submit FSRs to report the status of all funds. Subgrantees must submit
timely cumulative FSRs in accordance with Corporation guidelines. Additionally,
programs completing the final year of their grant must submit a final FSR that is
cumulative over the entire grant period. This FSR is due 90 days after the close of the
grant.

The Special Provisions, Learn and Serve America: School-Based Programs, also state
that programs completing the final year of their grant must submit, in lieu of a semi-
annual progress report, a final progress report that is cumulative over the entire grant
period. This progress report is due 90 days after the close of the grant.

20. Retention of grant-related records

The Kentucky River Foothills Development Council destroyed the pay register for
program year 1998-99. Therefore, we could not verify the payroll deductions and taxes
for program year 1998-99.

According to the Special Provisions, Learn and Serve America: School-Based Programs,
the grantee must retain and make available all financial records, supporting
documentation, statistical records, evaluation data, member information and personnel
records for 3 years from the date of the submission of the final FSR. If an audit is started
prior to the expiration of the 3-year period, the records must be retained until the audit
findings involving the records have been resolved and final action taken.

        Recommendations Related to the Learn & Serve Grant

No recommendations are considered necessary for the findings related to the Learn &
Serve grant as the Commission no longer administers this grant.

Administrative and Program Development and Training (PDAT) Grants

E. Compliance Findings Resulting in Questioned Costs

The specific amounts questioned related to the findings discussed below are included in
the Schedules of Award Costs at Exhibits C and D and in the Summary of Questioned
Costs included as Note 2 to the Consolidated Schedule of Award Costs. This Note
reconciles the amounts identified as questioned costs in the following paragraphs to the
consolidated amounts of questioned costs reflected in Exhibits C and D.

21. Documentation to support selectedpayments claimed under the grant was not
    maintained (Questioned Claimed Cost of $273,622).

The Commission was unable to provide documentation supporting costs related to
November 1995 and calendar year 1996. Therefore, we questioned $75,463 of PDAT
expenses and $191,736 of Administrative expenses incurred during those periods.
In addition, the Commission was unable to provide documentation that supported the
existence andlor reasonableness of selected payments claimed for reimbursement from
the Corporation under the Administrative grant, as follows:

Category of Cost        Payee                            Amount          Program Year
Travel                  Crowley                           $6 18.75            1995
SuppliesMaterials       Printing                          $3,322.92           1995
SuppliesIMaterials
  - -
                        Printing                            $542.1 1          1999
                        Services/Transition
SuppliesMaterials       Duplicator Sales and              $1,039.50           2000
                        Service
Other                   Security Guard Services             $900.00            1999

Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments, section C(1) states "To be allowable under
Federal awards, costs must.. .be adequately documented."

        Recommendation

We recommend that the Commission enhance its record-keeping procedures to ensure
that supporting documentation for its expenses is maintained as required by OMB and the
grant agreement.

22. Matching requirements were not met (Questioned Claimed Costs of $94,015).

After taking other costs questioned as part of this incurred cost audit into consideration,
the Commission did not meet matching requirements in program years 1994 and 1995.

Title 42 USC, section 12571 (e)(l), specifies "Except as provided in section 12594 of this
title, the Federal share of the cost of carrying out a national service program that receives
the assistance under subsection (a) of this section, whether the assistance is provided
directly or as a subgrant from the original recipient of the assistance, may not exceed 75
percent of such cost." Each year's approved Administrative grant budget identifies the
required match for the year.

        Recommendation

No recommendation is considered necessary since similar exceptions were not identified
in more recent program years.
23. Match amounts claimed are not properly supported (Questioned Match of $266,463)

The Commission could not provide supporting documentation for in-kind contributions
claimed under the Administrative grant as match for program years 1994 through 1997.
In addition, the Commission could not provide supporting documentation for one match
expense selected for testing (June 16,2000, payee - Duplicator Sales and Services,
$1,039.50 claimed as match).

       Recommendation

We recommend that the Commission enhance its record-keeping procedures to ensure
that supporting documentation for its expenses is maintained as required by OMB and the
grant agreement.

F. Other Compliance Findings

24. Submission of FSRs

Of 14 Administrative grant FSRs selected for testing, 13 were not submitted timely. In
addition, of 14 PDAT grant FSRs selected for testing, 8 were not submitted timely.

According to Grant Provisions, section 1l(c): "Financial reports shall be submitted
quarterly on the Financial Status Report form SF 269 or SF269A. Reports are due 30
days after the end of the calendar quarters of March 3 1, June 30, September 30 and
December 3 1."

This reporting requirement became a semi-annual requirement in 1999, according to the
Special Grant Provisions, section 7(c) (within 30 days of March 3 1 and September 30).

We also noted upon review of grant award documents for 1999 and 2000 that the
Administrative grant FSRs submitted for December 3 1, 1999 and December 3 1,2000 are
incorrect. The correct awards that should be listed on the FSRs for 1999 and 2000 as
"total federal funds authorized' are $1,2 19,901 and $1,385,156, respectively.

       Recommendation

We recommend that the Commission continue its implementation of procedures to ensure
that FSRs submitted to the Corporation are complete, accurate, and timely.

2.5. Misclassification of certain PDAT costs

We identified one subgrantee that did receive a PDAT subgrant during program year
1997-98 (i.e., Green River Area Development District) and one subgrantee that may have
received a PDAT subgrant in the same program year (i.e., Homeless and Housing
Coalition of Kentucky). However, on the PDAT Schedule of Award Costs, no costs are
claimed under the "Sub-contracts, Sub-grants" category. Instead, such costs were
erroneously included as a component of "Other." As a result, the PDAT Schedule of
Award Costs is not presented in accordance with the terms of the grant.

       Recommendation

We recommend that the Commission begin tracking its grant expenses by approved cost
categories by program year. If a system outside of the State's accounting system must be
maintained in order to achieve this objective, the Commission should reconcile the data
in this other system to the State's accounting system monthly.

Other Procedures

We inquired of the Commission, and its subgrantees selected for audit, about their
awareness of the Corporation's GPRA goals and whether the Commission had provided
specific information to the subgrantees related to the goals. However, the Commission
staff was not specifically knowledgeable of the GPRA. Present management of several
subgrantees that are no longer receiving AmeriCorps grant funds, were not aware of
whether their former counterparts that managed the AmeriCorps programs were aware of
GPRA goals. Of the subgrantees that are currently receiving AmeriCorps grant funds,
the program directors were also not specifically aware of GPRA. However, these
subgrantees do submit periodic progress reports describing their accomplishments against
their goals.

RESPONSIBILITIES

Management's Responsibility

The Kentucky Commission on Community Volunteerism and Service is responsible for:

       preparing FSRs in accordance with the terms and conditions of its grant awards
       from the Corporation. These reports provide the information that is used to
       prepare the Schedules of Award Costs;

       establishing and maintaining internal controls over financial reporting; and

        complying with laws and regulations, including those related to monitoring of its
        subgrantees.

In fulfilling its responsibilities management's estimates and judgments are required to
assess the expected benefits and related costs of internal control policies.
Auditors ' Responsibility

Our responsibility is to issue our report on the Schedules of Award Costs.

Although our report included a disclaimer of opinion on the Schedules of Award Costs,
we conducted our incurred cost audit in accordance with auditing standards generally
accepted in the United States of America, Government Auditing Standards issued by the
Comptroller General of the United States, and the Audit Program for Full Scope Incurred
Cost Audit of Corporation Awards with Subrecipients (the Audit Program), issued by the
Corporation's Office of Inspector General. Those standards and the Audit Program
require that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the Schedules of Award Costs
(Exhibits A through E), are free of material misstatement.

An audit includes:

       examining, on a test basis, evidence supporting the amounts and disclosures in the
       Schedules;
       assessing the accounting principles used and significant estimates made by
       management; and
       evaluating the overall Schedules of Award Costs presentation.

In planning and performing our incurred cost audit, we considered the Commission's
internal control over financial reporting by obtaining an understanding of the
Commission's internal controls, determining whether these internal controls have been
placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the
Schedules. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards.

As part of obtaining reasonable assurance about whether the Schedules of Award Costs
are free of material misstatement, we performed tests of the Commission's compliance
with certain provisions of applicable laws, regulations and provisions of the
Corporation's grant agreements, noncompliance with which could have a direct and
material effect on the determination of Schedule amounts. We limited our tests of
compliance to these provisions and did not test compliance with all laws and regulations
applicable to the Commission.

We provided a draft of this report to the Commission and Corporation. The
Commission's and Corporation's responses to our report are included as Appendix A
and B, respectively. Our comments on the Commission's response are included as
Appendix C.
DISTRIBUTION

This report is intended solely for the information and use of the Office of the Inspector
General and management of the Corporation for National and Community Service, the
management of the Kentucky Commission on Community Volunteerism and Service, and
the United States Congress and is not intended to be and should not be used by anyone
other than these specified parties.




October 23,2001
                                                                                       Exhibit F-1


                       Kentucky Commission on Community Volunteerism and Service
                               Homeless and Housing Coalition of Kentucky
                                        Schedule of Award Costs
                              From September 1,1994 to December 31,2000

                                              Approved             Claimed         Questioned
              Cost Category                    Budget               Costs            Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Adjustment to Agree General Ledger
to FSRs:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                    Exhibit F-2

                       Kentucky Commission on Community Volunteerism and Service
                                       Kentucky State University
                                        Schedule of Award Costs
                                From September 1,1997 to August 31,1999

                                               Approved            Claimed         Questioned
               Cost Categorv                    Budget              Costs            Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   0ther
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
  Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                Exhibit F-3


                   Kentucky Commission on Community Volunteerism and Service
                          Community Action of Southern Kentucky, Inc.
                                    Schedule of Award Costs
                            From September 1,1997 to August 31,2000

                                            Approved           Claimed         Questioned
              Cost Category                  Budget             Costs            Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Adjustment to Agree General Ledger
to FSRs:

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                     Exhibit F-4


                       Kentucky Commission on Community Volunteerism and Service
                                  Big Sandy Area Development District
                                        Schedule of Award Costs
                              From September 1,1996 to December 31,2000

                                               Approved             Claimed        Questioned
              Cost Category                     Budget               Costs           Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                     Exhibit F-5


                       Kentucky Commission on Community Volunteerism and Service
                                      Morehead State University
                                       Schedule of Award Costs
                              From September 1,1994 to December 31,2000

                                              Approved              Claimed        Questioned
              Cost Category                    Budget                Costs           Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
   Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                          Exhibit F-6


                  Kentucky Commission on Community Volunteerism and Service
     Community Action Council for Lexington-Fayette, Bourbon, Harrison & Nicholas Counties, Inc.
                                     Schedule of Award Costs
                           From September 1,1995 to August 31,2000

                                               Approved              Claimed            Questioned
               Cost Category                    Budget                Costs               Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
   Training & Education
   Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                                Exhibit F-7


                       Kentucky Commission on Community Volunteerism and Service
                                  Simpson County Board of Education
                                       Schedule of Award Costs
                              From September 1,1994 to December 31,2000

                                               Approved             Claimed        Questioned
              Cost Category                     Budget               Costs           Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
   Training & Education
   Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

SalariesLiving Allowance
BenefitsFICA

Operating Costs:

Internal Evaluation:

Administration:

Adjustment to Agree General Ledger
to FSRs:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                             Exhibit F-8


                    Kentucky Commission on Community Volunteerism and Service
                                 Christian County Public Schools
                                     Schedule of Award Costs
                             From September 1,1995 to August 31,1997

                                            Approved            Claimed         Questioned
              Cost Category                  Budget              Costs            Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
   Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Missing General Ledger Detail:

Adjustment to Agree General Ledger
to FSRs:

Federal Costs Claimed in Excess of
Approved Percentage:
  Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                       Exhibit F-9


                       Kentucky Commission on Community Volunteerism and Service
                                     Eastern Kentucky University
                                       Schedule of Award Costs
                              From September 1,1994 to December 31,2000

                                              Approved             Claimed         Questioned
              Cost Cate~orv                    Budget               Costs            Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                      Exhibit F-10


                   Kentucky Commission on Community Volunteerism and Service
                                Northern Kentucky United Way
                                   Schedule of Award Costs
                          From September 1,1994 to September 30,1996

                                           Approved            Claimed         Questioned
              Cost Cateeorv                 Budget              Costs            Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Adjustment to Agree General Ledger
to FSRs:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                               Exhibit F-11


                   Kentucky Commission on Community Volunteerism and Service
                             Green River Area Development District
                                   Schedule of Award Costs
                          From September 1,1997 to December 31,2000

                                            Approved           Claimed         Questioned
              Cost Category                  Budget             Costs            Costs

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Federal Costs Claimed in Excess of
Approved Percentage:
   Section A
   Section B-F

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                               Exhibit F-12

                   Kentucky Commission on Community Volunteerism and Service
                                 Jefferson County Public Schools
                               Schedule of Award Costs (unaudited)
                            From September 1,1994 to August 31,1996

                                            Approved           Claimed         Questioned
              Cost Category                  Budget             Costs          Costs (NIA)

Member Support Costs:
  Living Allowance
  FICA & Workers Comp.
  Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:                                43,605             29,049

Internal Evaluation:                               -                  -
Administration:

Total Corporation Funds:                       476,345            435,675

Total Matching Funds:

Total Funds:
                                                                               Exhibit F-13


                   Kentucky Commission on Community Volunteerism and Service
                                        City of Leitchfield
                               Schedule of Award Costs (unaudited)
                            From September 1,1997 to August 31,1999

                                            Approved           Claimed         Questioned
              Cost Category                  Budget             Costs          Costs (NIA)

Member Support Costs:
  Living Allowance                                                             $       -
  FICA & Workers Comp.                                                                 -
  Health Care                                                                          -
Subtotal

Other Member Costs:
  Training & Education
   Uniforms
   Other
Subtotal

Staff:
   Salaries
   Benefits
   Training
   Other
Subtotal

Operating Costs:

Internal Evaluation:

Administration:

Adjustment to Agree General Ledger
to FSRs:

Total Corporation Funds:

Total Matching Funds:

Total Funds:
                                                                                Exhibit G


                             Status of Findings from
  OIG Audit Report #00-11, Pre-Audit Survey Report of the Kentucky Commission on
                       Community Volunteerism and Service


The Commission did not begin to implement significant corrective action related to the
pre-audit survey findings until October 2000, after the hiring of a new Executive Director
in August 2000. We reviewed action taken by the Commission through March 2001 on
the findings, reported by the independent accounting firm of Urbach Kahn & Werlin, PC.

Selecting Subgrantees

The Commission did not maintain dated conflict of interestforms prior to the 1999
program year.

"Reviewers sign conflict of interest statements for the applications mailed to them for
their review. Because the conflict of interest statement forms were not dated and
maintained with the grant review forms for the 1995 though 1998 program years, we
were unable to determine the program year and applications to which they related.
However, during the 1999 program year, the conflict of interest statements were signed,
dated and stapled to the grant reviewer evaluations."

Some documentation supporting grant-making decisions was unavailable.

"The Commission was unable to provide us with certain documentation to support the
selection process."

Lack of assessment of subgrantee applicants 'financial systems during the selection
process.

"Selection officials do not consider the adequacy of the applicants' financial systems
during the Commission's subgrantee selection process. The grant application form
provided by the Corporation does not specifically address the applicant's financial
systems. In addition, Commission selection procedures do not require Commission
personnel to request information from the applicants related to their financial systems or
to otherwise assess an applicant's financial system."

The Commission did not maintain documentation to support the advertisement of the
availability of grant funds.

"Commission procedures indicate that the availability of funds is announced through
news releases, direct mailings and public grant information meetings. However, no
supporting documentation exists that such announcements were made during the 1995
through 1998 program years."
                                                                                Exhibit G

Recommendations

The report recommended that the Commission:
w Enforce current procedures and require that signed and dated conflict of interest forms
   be maintained for each grant applicant on file in accordance with Corporation
   requirements.
rn Enforce its policies and procedures requiring the retention of documentation
   supporting the award or rejection of subgrantee applicants.
rn Evaluate and document the adequacy of the applicants' financial systems during the
   selection process.
rn Revise its procedures to require the retention of documentation to support the
   advertisement of the availability of grant funds.

Status

The Commission has developed and implemented procedures that require each new
Commission member and peer reviewer to sign and date conflict of interest forms prior to
commencement of their duties. Our follow-up procedures over the pre-audit survey
findings indicated that the Commission is now properly obtaining conflict of interest
statements from Commission members. However, we could not test the receipt of signed
and dated conflict of interest forms from peer reviewers because no new applicants
applied for the 2000-01 program year and the forms are only required if new applicants
apply.

The Commission is currently implementing an application review process based on
guidance received from the Corporation. As part of this implementation, the Commission
has designed a new pre-selection evaluation form and is creating guidelines for reviewers
of new applicants. Programs that are eligible for renewal are evaluated by Commission
personnel based on their renewal application and site visit evaluations. A
Recommendation Summary is prepared by Commission personnel based on this
information and approved by the Commission Chair. Our follow-up procedures over the
pre-audit survey findings indicated that the Commission is following its new procedures
for renewal applicants, except as noted below related to site visit evaluations. However,
we could not test its procedures related to new applicants because no new applicants
applied for the 2000-01 program year.

The Commission has developed procedures that require all new applicants to submit a
form certifying that they have the fiscal capacity to administer the grant. The applicant's
independent auditor will complete this certification form. In addition, the Commission
will require all new and renewal applicants to submit with the application a copy of the
latest OMB Circular A- 133 audit report or other audit report. The Commission will also
evaluate the financial systems of renewal applicants through the results of site monitoring
during the previous year. However, we could not adequately follow-up on the
implementation of these new procedures because (1) no new applicants applied for the
2000-01 program year and (2) no fiscal site monitoring occurred through March 2001.
                                                                               Exhibit G


Under the Commission's new administrative entity, the Cabinet for Families and
Children (CFC), the Commission will now follow CFC's advertising policies, which
include the use of newspapers with statewide reach and radio and television
advertisements. Documentation to support these announcements will be kept on file at
the Commission. However, we could not adequately follow-up on the implementation of
these new procedures. The most recent advertising period would have been for the 2001-
02 program year, which is not a renewal year. Therefore, the Commission did not
advertise.

Administering Grant Funds

Luck of evidence of Financial Status Report review, including matching recalculation.

"Commission procedures indicate that subgrantee Financial Status Reports are to be
reviewed and matching requirements recalculated." However, various exceptions were
noted related to FSRs. "In addition, Commission personnel do not compare the FSRs to
the subgrantees' accounting records or other supporting documentation during site
visits."

Lute submission of FSRs.

The independent accounting firm identified 1 1 instances where the Commission
submitted FSRs more than ten days late to the Corporation and 14 instances where
subgrantees did not submit FSRs timely to the Commission.

Inability to determine the timeliness of the receipt of FSRs.

"The Commission does not routinely date-stamp FSR reports from subgrantees as they
are received. Thus, the Commission can not determine if these documents are submitted
timely in compliance with the grant agreement." Because of the implementation of the
Web-Based Reporting System (WBRS) in October 1999, no recommendation was made
related to this finding.

The Commission did not maintain all required FSRs.

The independent accounting firm identified several instances where Commission and
subgrantee FSRs and related supporting documentation could not be located.

Recommendations

The report recommended that the Commission:
rn Develop standard procedures to review subgrantee FSRs, recalculate matching
   requirements and formally document the results of the review.
rn Implement site visit monitoring procedures that require the reconciliation of the
   subgrantees' FSRs to the subgrantees' accounting records and other supporting
   documentation.
                                                                               Exhibit G


   Enforce current policies and procedures requiring the submission of FSRs in
   accordance with Corporation guidelines.
rn Maintain copies of, and support for, all FSRs it submits to the Corporation and copies
   of subgrantee FSRs and suppofiing documentation.

Status

Under new procedures, subgrantees will be fiscally monitored by members of the
Contracts Accountability Branch of CFC. This monitoring will include the review of
FSRs submitted by the subgrantees. However, because these new procedures had not
been fully implemented as of March 2001, we could not adequately follow-up on their
performance.

The Commission continues to require that subgrantees submit quarterly FSRs, a
requirement in excess of current Corporation requirements. Although untimely
submission of subgrantee information and reports is addressed via telephone by the
Financial Officer, no formal follow-up procedures are in place at the Commission to
ensure that FSRs are submitted timely. Regarding the submission of Commission-level
FSRs, we reviewed the December 31,2000 FSRs for the PDAT and Administrative
grants, noting that both were submitted timely. See related findings on pages 42,46 and
48 of this report.

The Commission's Financial Officer is responsible for maintaining all fiscal materials,
including FSRs submitted. However, since the implementation of WBRS and electronic
submission of FSRs, the maintenance of hard copies of subgrantee FSRs has not been
closely monitored or enforced, and complete files do not exist. Regarding Commission-
level FSRs, the Commission provided us with copies of the December 3 1,2000 FSRs for
the PDAT and Administrative grants.

Evaluating and Monitoring Subgrantees

The evaluating and monitoring system for subgrantees needs to be improved at the
Commission.

The Commission was unable to provide requested information related to the Learn and
Serve program (e.g., funding awarded to subgrantees during 1995), and documentation
supporting the Commission's monitoring procedures was not consistently maintained. In
addition, the independent accounting firm found the following deficiencies in the
Commission's monitoring procedures:

    Lack of verification of reported member service hours to supporting documentation;
    Lack of identification of member files reviewed and member files with exceptions;
    and
    Inclusion of only general comments on the program review instrument, preventing the
    reperformance of procedures completed by Commission personnel.
                                                                              Exhibit G

Lack of documentation of review of OMB Circular A-133 Reports or other audit reports
from subgrantees

"The Commission does not document its review of subgrantee OMB Circular A-133
audits or other audit reports as part of the monitoring process. In addition, the
Commission does not have a process to support, document, and track subgrantee audit
reviews and findings."

Recommendations

The report recommended that the Commission:

w Revise its written policies and procedures to require that specific information be
  included in the documentation of site visits (e.g., sample sizes, exceptions,
  recommendation, and follow-up).
w Maintain a schedule of subgrantees subject to OMB Circular A-1 33 requirements and
  ensure that the audits are performed.
w Establish policies and procedures requiring the review of OMB Circular A-133 audit
  reports and that review results are documented.

The report also recommended that the Corporation revise its guidance to specify
minimum procedures to be performed during site visits and minimum related
documentation requirements.

Status

The Commission is currently developing and implementing a new subgrantee monitoring
process using the Corporation's example program review instrument. This process
includes annual site visits to each subgrantee and requires the review of compliance and
performance results. However, as noted on page 20 of this report, further enhancements
to this process should be made. The Commission did complete one site visit under this
new process in February 2001; we reviewed related documentation, including the
completed program review instrument and the communication to the subgrantee of a
deficiency related to program results documentation. Fiscal monitoring did not occur
during this visit, but is expected to commence in program year 2001-02.

As noted above, members of the Contracts Accountability Branch of CFC will perform
fiscal monitoring of subgrantees. This monitoring includes the review of submitted OMB
Circular A-133 reports, which are maintained by the Commission. Any AmeriCorps-
related findings will be tracked to ensure appropriate resolution. Our follow-up
procedures over the pre-audit survey findings indicated that the Commission has copies
of the fiscal year 2000 OMB Circular A-133 audit reports for four of the six program year
2000-01 subgrantees (the other two were not yet due), and Commission personnel were
aware of the contents. However, because the reports did not include any AmeriCorps-
related issues, we could not adequately determine if the tracking procedures noted above
had been fully implemented.
                                                                                                                               APPENDIX A
                        KENTUCKY COMMISSION ON COMMUNITY VOLUNTEERISM
                                                                    AND SERVICE
                                                                                                                                     hap://volunte&ystate.ky.us



COMMISSION
OFFICERS
            CHAIR
 Karen Schmalzbauer
                         rvlarch 27,2002
      VICE CHAIR
       Pat Hargadon
                         (Iffice of the Inspector General
      TREPLSURER         (2orporation for National and Community Service
   Bill Hqpnbotham       4
                          1201 New York Avenue NW
      SECRETARY          \Nashington DC 20525
          J- stmm
 C O ~ O N E R S
   Douglas C. Advns
       Nclda &ma         IDuring the month of April 2001, KPMG performed an incurred cost audit of the costs claimed by
       Todd Bledsoe
 Khnbaly S.Brannock       The Kentucky Commission on Community Volunteerism and Service and its sub grantees. The
Rcga Crag Cleveland      iaudit took place from January 28,1994 through December 31,2000. Since that time many
       W. C. Corbm       improvements have been instituted. The Commission has been through many changes since
           Gry c o x
    K d Culp III         its inception in 1994. The personnel of the Commission has completely changed along with a
          Ah" Engel       2hange in administrative oversight. The current Commission and staff, by Executive order of
      Madene Helm
       Ken Hemdon        1the Governor, was placed under the Commonwealth of Kentucky Cabinet for Families and
       David Holton       Children (CFC) in January of 2000. As part of the administrative structure of the CFC, the
      h h k Leonard       Commission now functions within the administrative process of the CFC.
    David M&ey
      Viola P. Miller
 J+ Doug Morgm            The Kentucky Commission on Community Volunteerism and Service now has a comprehensive




         -
   Gchaim Newton
     JocNorsworchy
                         Irisk based pre-award assessment and a   risk based monitoringtool that covers both program
       Daridc Smith      iand fiscal monitoring. This 25 page document is used for the annual program/financial site visit.
                          The number and scope of the visits are determined by the individual needs of the agency.
       8[-OFFICIO
                         \Withoutthe accompanying work papers, we cannot fully respond to each of the findings,
      James Bickford
         Allen Rose
                         therefore, we respectfully request a copy of all work papers. The majority of the questioned
      Cicely Lambert     costs occurred from 1994-1997 as a result from the audit interpretation of the time frame for the
         Betsy wells     retention of records. The programs in question have supplied materials either from new
                         independent audits or from their files that they feel will answer the findings in a positive manner.
     KCCVS STAFF
    Eilrm Cackowski          Ifyou have any questions or concerns, please feel free to contact me.
     Howard Velosky
      Robert M&
     Grriecopeland
         Karen Asha
  h h d e Wurcsmith
       Andrea Sieloff

                             Eileen Cackowski
                          Executive Director

                          Cc:         Karen Schmalzbauer, Commission Chair
                                      Secretary Viola Miller, Cabinet for Families and Children




                                               '.
                                               .-.                                A. 1
                             275 E Main St 3W-C, Frankfort, Kentucky 40621, Phone 502-564-7420, Fax 502-564-7478, email: kccvs@mail.stateky.us
              Kentucky Commission on Community Volunteerism and Service
                             Response to Audit Findings
                               OiG Audit Report 02-10

A. Compliance Findings Resulting in Questioned Costs

Lack of Documentation

Finding # l a
Compliance Findings Resulting in Questioned Costs
Condition Eligibility requirements were not met (Questioned Claimed Costs of $1,699,924,
Questioned Match Amounts of $220,806 other match amounts questioned in additional findings
reported below, and Questioned Education A wards of $529,164).
Commission Comment
 The Commission disagrees with this'finding. State record retention regulations require
contractors to retain records for three years or until audit issues regarding their contractlstate
fiscal year are resolved. Sub grantees interpreted the instructions regarding record retention,
"All financial records, supporting documentation, statistical records, evaluation data,
participation information and personnel records for three years" etc. as referring to the FSR of
the sub grantee since nothing in the earliest or current handbooks clarify that the "end of the
grant" or "final Financial Status Report" is referring to the grantlreports of the Commission rather
than the sub grantee. The audit interpretation of records retention as three years from the date
of submission of the final Financial Status Report by the Commission, is being applied from the
current time back to the start up of programs in 1994.

We agree that all AmeriCorps members should have proper documentation as required.
KCCVS has provided a printed file folder for each member listing each document that should be
contained therein. The Commission has further recommended that programs not sign member
contracts until all documentation is in the member file. This is noted in their contract. In order to
be able to document compliance we would need work papers of the auditor for names etc. We
request those work papers.

Finding #Ib.
Condition
Documentation to support time and attendance records and proper authorization of timesheets
was not evident, including lack of support for AmeriCorps members' terms of setvice
(Questioned Claimed Costs of $384,034; Questioned Match Amounts of $6,544 and Questioned
Education Awards of $298,398).
 Commission Comment
The Commission disagrees with this finding. Sub grantees interpreted the audit interpretation of
records retention, as three years from the date of their own agency independent audit not the
CNCS audit of the Commission and its sub grantees. Procedures have been put in place to
insure record retention. In order to be able to document compliance we would need work
papers of the auditor for names etc. We request those work papers.

Finding # 2
Condition
General Ledger andlor payroll records were not maintained, or expenses reported in the FSR's
exceeded expenses recorded in the general ledger, (Questioned Claimed Costs of $646,572
and Questioned Match Amounts of $145,722,)
Commission Comment
The Commission disagrees with this finding. Independent audits are available for Community
Action of Southern Kentucky. Documentation is on hand from Simpson County Board of
Education that refutes the finding and The Christian County Board of Education stated that
difference in fiscal years and the fact that they had overmatch caused the conclusions reached
by the auditors. The Commission requests work papers to support the finding.

Finding # 3
Condition
Documentation to support certain federal costs were destroyed in accordance with sub grantee
record retention policies (Questioned Claimed Cost of $742,622).
Commission Comment
We disagree with this finding. Sub grantees interpreted the audit interpretation of records
retention, as three years from the date of their own agency independent audit not the CNCS
audit of the Commission and its sub grantees. HHCK also found that a computer with financial
information was surplused to a former employee by mistake and the information from that
computer was lost.

Finding # 4
Condition
Documentation to support selected payments claimed under the grant was not maintained
(Questioned Claimed Cost of $1 12,429 and Questioned Match Amounts of $75,802).
Commission Comment
The Commission disagrees with this finding. Sub grantees interpreted the policy of records
retention, as three years from the date of their own agency independent audit not the CNCS
audit of the Commission and its sub grantees. Procedures have been put in place to insure
record retention. In order to be able to document compliance we would need work papers of the
auditor for names etc. We request those work papers.

Findinn #5
Condition
Administrative costs in excess of the maximum Corporation share were claimed (Questioned         .
Claimed Costs of $24,693).
Commission Comment
The Commission disagrees with this finding. Records on hand from Simpson County Board of
Education refute this finding. Annual independent audits from Northern Kentucky United Way,
Green River Development District, Community Action of Southern Kentucky and Community
Action Council of Lexington do not indicate any significant findings regarding AmeriCorps
grantees. Paperwork is still coming in to refute the finding.

Findina #6
Condition
Funds were allocated to different budget cost categories without prior approval, when required
(Questioned Claimed Cost $14,382).
Commission Comment
The Commission disagrees with this finding. While there may have been a variance in the
budget line items, the overall budget was not exceeded and the sub grantees operated with the
understandingthat they were able to change budget items that did not exceed the amount of the
full budget.

Finding # 7
Condition
Sub grantee personnel could not provide sufficient explanations for variances in payroll
expenditures (Estimated Questioned Claimed Cost of $22,264 and Estimated Questioned Match
of $1 7,470)
Commission Comment
We disagree with this finding. Without auditor worksheets, the $22,264 Claimed Costs and the
$1 7,470 estimated match spread over four contractors over a five-year period is impossible to
determine. In order to determine precise costs, KCCVS requires the audit work papers that
indicate the computation and methodology used to calculate these costs. Based on the letters
and the documents from the Simpson County Board of Education and Eastern Kentucky
University, this finding is incorrect. The methodology used mixing paid staff with AmeriCorps
members as well as the total cost makes it impossible to respond wiihout work papers. We
request those work papers.

Finding # 8
condition
Certain calculation errors were made by sub grantee personnel (Questioned Claimed Costs of
$22,250 and Questioned Match of $3,284). -
Commission Comment
The Commission disagrees with this finding. Audits are available for the Community Action
Agency of Southern Kentucky, for the time period in question. FY 2000 audit for this agency
shows no relevant findings related to the AmeriCorps program. Audit work papers are requested
to answer the individual claims.

Finding # 9
condition
Matching requirements were not met (Questioned Claimed Costs of $1, 496,8 15).
Commission Comment
The Commission disagrees with this finding. According to documents received by this
Commission the match was met for the majority of the programs. In order to respond to specific
amounts per program, the Commission respectfully request the auditors work papers.

Finding # 10
Condition
Documentation to support certain matching costs were destroyed (Questioned Match of

Commission Comment
Sub grantees interpreted the instructions regarding record retention, "All financial records,
supporting documentation, statistical records, evaluation data, participation information and
personnel records for three years" etc. as referring to the FSR of the sub grantee since nothing
in the earliest or current handbooks clarify that the "end of the grant" or "final Financial Status
Report" is referring to the grantlreports of the Commission rather than the sub grantee.

Finding # 11
Condition
Match amounts are not properly supported (Questioned Match of $972,040)
Commission Comment
Sub grantees interpreted the instructions regarding record retention, "All financial records,
supporting documentation, statistical records, evaluation data, participation information and
personnel records for three years" etc. as referring to the FSR of the sub grantee since nothing
in the earliest or current handbooks clarify that the "end of the grant" or "final Financial Status
Report" is referring to the grantlreports of the Commission rather than the sub grantee.

 B. Other Compliance Findings

Finding #12
Conditions
Lack of Documentation to include: Criminal record check; Position descriptions; Member
contracts; Orientation; Member start and end datedlocation of member's service; Mid-tern and
end-of-term evaluations; Enrollment forms; change of status forms; exited and end- of-tern-of-
service-forms; Health insurance forms;W-4 forms; Financial Status Reports and Progress
Reports
Commission Comment
The Commission agrees that all AmeriCorps members should have proper documentation as
required. KCCVS has provided a printed file folder to each program to fill out for each member.
The front of the folder lists each document that should be contained therein. The Commission
has further recommended that programs not sign member contracts until all documentation is in
the member file. The Commission also understands that the exact kind of documentation has
changed over the years. As the federal program has grown so has the need for more specific
kinds of documentation. Sub grantees interpreted the instructions regarding record retention,
"All financial records, supporting documentation, statistical records, evaluation data,
participation information and personnel records for three years" etc. as referring to the FSR of
the sub grantee since nothing in the earliest or current handbooks clarify that the "end of the
grant" or "final Financial Status Report" is referring to the grantlreports of the Commission rather
than the sub grantee The Commission works diligently to ensure all proper documentation is in
place.

Finding # 13
Condition
Expenses recorded in the general ledger exceeded expenses reported in the FSRs
Commission Comment
The Commission disagrees with this finding. Letters and documents (lidependent audits)
indicate no findings regarding the AmeriCorps program. We would need the auditors work
papers in order to respond.

Finding #14
Condition
Exceptions to member living - allowance requirements
Commission Comment
The Commission concurs that "Given the age of the exception and the lack of more recent
exceptions of a similar nature, no specific recommendation is necessary".

Findinn # 15
Other exceptions to matching requirements
Commission Comments
Simpson County Board of Education and the Homeless and Housing Coalition of Kentucky have
produced documents to support their match.

Recommendations Related to the AmeriCorps Grant
    The Commission should provide additional guidance to existing sub grantees on record
    retention, and documentation standards for such items as eligibility, time sheets, member
    service hours, AmeriCorps roster updates on member status, other claimed costs submitted
    for reimbursement, matching costs reported, and contributions received. The Commission
    should then verify sub grantee compliance with this guidance during periodic site visits.
Commission Comment
Currently, the Kentucky Commission on Community Volunteerism and Service now has a very
comprehensive risk based pre-award assessment and a risk based monitoring tool that covers
both program and fiscal monitoring. This 25-page document is used for the annual
progradfinancial site visit. Should the risk of the program indicate, appropriate technical
assistance visits are developed. The number and scope of the visits are determined by the
individual agency need.

    The Commission should enhance its policies and procedures for review of sub grantee
    member support and program operating matching requirements to ensure compliance.
    The Commission should ensure that current sub grantees have developed and
    implemented procedures to ensure that administrative costs claimed do not exceed the
    maximum percentage allowable in each program year and to ensure that they receive prior
    written approval for budgetary transfers, as required.
   The Commission should assure that current sub grantees have developed and implemented
   periodic budget monitoring procedures for the AmeriCorps grant to ensure costs charged
   against it are reasonable given the amount of the grant period that has expired.
   The commission should assure that the current sub grantees have a process to compare
   earned program revenue to claimed matching expenditures for each program year to ensure
   that all earned program revenue is used for program purposes during the program year.
Commission Comments
The new Grant Officer for the Commission has developed an EXCEL spreadsheet for each
program. She monitors the programs on a monthly basis to ensure compliance and matching
requirements. She monitors actual dollars and percentages, and projects average monthly
expenditures. Programs are notified immediately if there is a question regarding match or any
program cost. The entire program information is recapitulated yearly.

The Commission now has a comprehensive "Fiscal Policies and Procedures" Manual. This
manual covers: grant awards from Request for Proposals to pre-risk survey to award; fiscal
audit process; oversight of audits, everything from internal purpose and policy, from A-133 to
other audits and gives procedures taken by this office relating to sub grantee audits;
disbursement of funds and methods of payments, including manner of reimbursement; Financial
Status Reports, their purpose, submission timeline, both hard copy and Web Based Reporting
System (WBRS), periodic expense reports, extensions and checklists; matching funds
requirements, determining appropriate match, documentation and proof of match; budget
requirements, administrative costs and indirect costs, AmeriCorps living allowance, taxes,
insurance, member gear, child care, and impact of member living allowances/waiving the living
allowance; financial management requirements; regulatory requirements; financial policies and
procedures; additional requirements to include the National Trust forms, meetings, and site
visits and finally, closeout procedures. The last includes documents needed, OMB regulations,
KCCVS process, equipment allowable, title to and inventory of and carryover results, and follow-
up action. Many of these requirements are also included in or incorporated into the contract
between the Cabinet and its contracts

There is a companion booklet, KCCVS Internal Control Procedures to ensure the completeness,
accuracy and security of information to accurately carryout and report the Commission's
activities. This covers the Commonwealth of Kentucky Management and Reporting System
(MARS), detailed itemization spreadsheets that are reconciled monthly; federal monthly
expenditure reports; state monthly expenditure reports; expenditures by sub-object for indirect
cost; budget to actual reports; contractor reimbursements; sub-grantee advances (prohibited)
and documentation of KCCVS sub grantee match. Internal controls are also offered for: federal
grants draw downs, with full procedures, Financial Status Report requirements, purposes and
procedures, reconciliation and reporting schedule. The WBRS system is covered to include the
reporting schedule. The Cabinet's Procurement System, utilized by KCCVS both invoice
submission and reimbursement (Expense Account) remission process; personnel matters,
timesheets and payroll, staff evaluation; grant allocation, timesheets, policy and procedure.
Finally there is a section detailing the annual physical inventory procedure.

    The Commission should require existing sub grantees to document and adhere to file
    maintenance procedures that will ensure compliance with the AmeriCorps Provisions.
    Procedures should include, where applicable, a checklist for all required documentation, a
    training program for personnel who are responsible for maintenance of member files, and a
    periodic review process where selected member files are checked for compliance with these
    file maintenance procedures during periodic site visits.
                                               A.6
Commission Comment
The Kentucky Commission on Community Volunteerism and Service has implemented such a
requirement. Along with the file folder referred to in other comments, the Program Officer and
the Grants Officer work with each program to ensure standard filing practices. Member folders
are pulled using a random selection process. Financial folders, invoices, receipts are checked
for financial compliance. The new KCCVS "Programmatic Monitoring Tool" requires the
monitor@)to review program and member records and documents the records reviewed during
monitoring visits. If the files are not in order, deficiencies are noted on the monitoring tool, a
monitoring report is generated and sent to the program describing all deficiencies. The report
advises the program what action is required to correct deficiencies and the timeframe in which
the corrections must be completed and documentation returned to the Commission.
Commission staff "follow-up" on the implementation of corrective actions during subsequent
visits.

KCCVS is very interested in how each of its AmeriCorps programs have developed and
strengthened financial and program accountability processes. Our programs have survived and
excelled; some to be replicated nationally. There have been no instances of fraud, abuse or
misappropriatiori identified in the audit. Through a period when the Commission support of the
programs may have been less than optimal, the programs continued to thrive, support their
members and comply to the best of their ability to what they believed to be programmatic
compliance.

Misplaced or lost files are most likely due to the result of lapsed time, space restrictions required
for records to be stored year after year and the result of offices moving more frequently than
desired. At times, programs had to rent space or occupy assigned space and that space was
subject to forces beyond the control of anyone (ruptured pipes are a good example). Further,
the very extensive Risk Based Assessment to be filled out by an organization when applying for
a grant; an entirely new Programmatic Compliance MonitoringTool, already in use that includes
everything from documentation to a complete financial picture; a site visit review and feedback
protocol fit together make an enhanced system.

Copies of all of these tools are available for inspection. The new Processes Manuals will ensure
compliance of all provisions of the Corporation. Monthly spreadsheets now give a complete
financial picture of the programs coupled with extensive monitoring and site visits. The move of
KCCVS from the Council of Post Secondary Education to the Cabinet for Families and Children
also gave the Commission the availability of professionals in the contracts and finance functions
of the Cabinet as well as access to legal, communications and a statewide system of state
offices to assist the Commission in the administration and development of service and
volunteerism programs within the state. KCCVS is a part of and must adhere to the rules,
regulations, policies and procedures of the Cabinet for Families and Children. The KCCVS
contract, fiscal, personnel and administrative process is the Cabinet process. Staff time is
maintained by the Cabinet and staff is managed and reimbursed for time and travel expenses
according to state personnel regulations. Issues from the pre 2000 Commission are no longer
issues with this Commission. Regular monitoring of every aspect of the programs along with
constant attention to the smallest financial detail are hallmarks of the of the current Commission.

Learn & Serve Grant

C. Compliance Findings Resulting in Questioned Costs
Finding #16
Condition
 Inability to gain access to sub grantee records (Questioned ClaimedJCostsof $50,215 and
 Questioned Match of $13,500).
Commission Comments
The Commission disagrees with this determination. According to Nathan Sullivan, they are
willing to cooperate with an audit. Apparently a part time employee who was charged with
packing the office, not the program director, as indicated in the draft report, was contacted and
did not understandthe importance of the auditors call.

Finding # 17
Condition
Matching
       - requirements
           .          were not met (Questioned Claimed Costs of $4,118).
Commission Comment
The Commission disagrees with this finding based on documentation received by the
Commission since the audit.

Finding # 18
Condition
Match amounts claimed are not properly supported (Questioned Match of $3,755)
Commission Comment
The Commission disagrees with this finding based on the age of the documents to be matched,
the response from the independent audit and the response of the program. KCCVS requests
work papers to cover this finding.

D. Other Compliance Findings

Finding # 19
Condition1'
Submission of FSR's and progress reports
Commission Comment
Sub grantees interpreted the instructions regarding record retention, "All financial records,
supporting documentation, statistical records, evaluation data, participation information and
personnel records for three yearsn etc. as referring to the FSR of the sub grantee since nothing
in the earliest or current handbooks clarify that the "end of the grant" or "final Financial Status
Report" is referring to the grantheports of the Commission rather than the sub grantee.

Finding #20
Condition
Retention of grant-related records
Commission Comment
Sub grantees interpreted the Provision of record retention, "All financial records, supporting
documentation, statistical records, evaluation data, participation information and personnel
records for three years from the date of the final submission of the Financial Status Report", as
meaning the FSR of the sub grantee.

Finding # 21
Condition
Documentation to support selected payments claimed under the grant was not maintained
(Questioned Claimed Cost of $273,622)
Commission Comment
The Commission disagrees with this finding. Work papers will be necessary to respond to
individual costs. Some invoices are with the Cabinet for Families and Children, but those dated
pre 2000 should be with the Council on Post Secondary Education. We request the work
papers on this finding.
KCCVS has "...enhanced its record keeping procedures to ensure that supporting
documentation for its expenses is maintained as required by OMB and the grant agreement."
Two manuals have been developed. Kentuckv AmeriCor~s:Fiscal Policies and Procedures
Manual and KCCVS lnternal Control Procedures. These can be reviewed at the KCCVS office.

Finding # 22
Condition
Matching requirements were not met (Questioned Claimed Costs of $94,0 15)
 omm mission Comment
The Commission disagrees with this finding. From what the current Commission understands,
the Commission, in place at that time, felt chat the state requirement of record retention for three
years after the audit of their financial agent was the prevailing philosophy and they no longer
had to retain records. The Commission did not destroy records for any other than what they
thought to be appropriate reasons. With the new record keeping system this could never
happen again. Records are kept, checked and rechecked by both the Commission and the
Cabinet for Families and Children.

Finding # 23
Condition
Match amounts claimed are not properly supported. (Questioned Match of $266,463).
Commisslon Comments
The Commission disagrees with this finding. Our understanding is that the Commonwealth of
Kentucky has always provided state general funds as cash match for CNS administrative funds.
In order to reconstruct what may have happened at the time in question we request the auditors
working papers.

KCCVS has embraced the recommendation of the auditors and has "...enhanced its record
keeping procedures to ensure that supporting documentation for its expenses is maintained as
required by OM0 and the grant agreement." Two manuals have been developed. Kentucky
AmeriComs: Fiscal Policies and Procedures Manual and KCCVS lnternal Control Procedures.
These can be reviewed at the KCCVS office.

F. Other Compliance Issues

Finding # 24
Condition
Submission of FSRs
Commission Comment
The Commission agrees with this finding. KCCVS notes the recommendation of the auditors.
For the past 12 months the Commission reports have been filed timely and accurately.

Finding # 25
Condition
Misciassification of Certain PDAT Costs
Commission Comments
The Commission agrees with this finding. Beginning July 1, 1999, a new State Accounting
System, ~anagementAdministrative and ~eportingSystem, (MARS) went into existence. This
system will not allow a contract to be cut or a payment made to an outside agency unless funds
to support that expenditure were appropriately budgeted within the grant line item and obligated
by means of a contract or purchase order.

Other Procedures
In view of the significance placed on the Corporations GPRA goals, we object to the notation
and refer to CNS for resolution.
                                                                                                                    APPENDIX B
                                                          CORPORATION
                                                          FOR NATIONAL



                                                                                                                    OFFICE OF THE



To:                   Terry Bathen, Deputy Inspect

Through:              William Anderson, Deputy

Prom:                 Peter Heinaru, Director of AmeriC
                      Peg Rosenberry, Director of Grants

Date:                 March 29,2002

Subj:                 Response to OIG Draft Audit Report 02- 10: Incurred Cost
                      Awarded to the Kentucky Community Service Commission


We have reviewed the draft audit report of the Kentucky Community Service Commission
grants. Due to the limited tirnefiarne for response, we have not yet conducted a comprehensive
review nor analyzed documentation fiom the Kentucky Commission supporting the questioned
costs. We will respond to all findings and recommendations when the audit is issued and we
have reviewed the findings in detail. The Kentucky Commission has provided an extensive
response and begun corrective action as needed.

The draft audit report summary statement questions significant costs due to the lack of records at
some subgrantees. We believe that the record retention requirements are clear. We agree with
the need identified in your transmittal letter to address this issue and examine the impact on
questioned costs attributable to lack of records and supporting documentation for periods when
record retention requirements may have expired.

In addition, the draft audit report seems to link grantee and subgrantee record retention
requirements with Corporation close out of the grants, suggesting that records must be
maintained until the Corporation closes the grant. This is not the case. Corporation closeout
processes and timelines do not affect grantee record retention requirements.

Finally, we have recently completed addressing the system issues identified in the IG pre-audit
survey although this would have no direct impact on this audit which addressed prior periods.




                                                                                                             .
 NATIONAL SERVICE: GETTING THINGS DONE
ArncriCorps   . h a m and Serve America . Nntional Senior Scmicc Corps   R   1201 New York Avenue. N.W Washington, D.C. 20525
                                                                             telephone: 202-606-3300 website: ~ . n a t i o & ~ c e . o r g
                                                                            APPENDIX C


              KPMG's Comments on the Commission's Response
The following paragraphs present KPMG's comments on the Commission's responses to
the findings and recommendations included in this report. We continue to believe our
findings are valid, based on the results of the incurred cost audit performed on the costs
claimed by the Commission and its subgrantees. Further, our recommendations, once
fully implemented, should result in improvements to internal controls over the operations
of the Commission and those of its subgrantees.

Request for Work Papers
Under auditing standards generally accepted in the United States of America and
Government Auditing Standards issued by the Comptroller General of the United States,
work papers are the property of the auditor. Auditors are sometimes required by law,
regulation or audit contract to provide a regulator, or a duly appointed representative,
access to the work papers. However, the Commission and its subgrantees are considered
the auditees of this incurred cost audit, and copies of work papers are not provided to
auditees. In addition, the audit report and the detailed findings provided in writing to the
Commission and its subgrantees prior to the exit conference include most information
that the Commission has requested in its response (e.g., member names and invoice
information). Therefore, we will not provide the Commission copies of our work papers.
However, the Corporation's Office of Inspector Generals (OIG) has access to our work
papers and any requests for access to the audit work papers should be referred to the OIG
for determination on a case-by-case basis during the audit resolution process.

To clarify two findings for which detailed calculation information is not included in
either the audit report or detailed findings, our calculations of minimum matching
requirements and maximum administrative cost took into consideration costs questioned
as part of the incurred cost audit. For example, to calculate the maximum allowed
administrative cost at a particular subgrantee, we reduced expenditures claimed from the
Corporation by questioned costs identified that related to such expenditures, and
multiplied by the 5% maximum. We then compared this result to the administrative cost
claimed from the Corporation by the subgrantee, and we questioned any claimed amount
in excess of the 5% calculation result.

Record Retention Requirements
Throughout its response, the Commission expressed concern over KPMG's interpretation
of the AmeriCorps and Learn & Serve record retention requirement which has given rise
to a significant portion of the questioned costs. As indicated in our report, the
AmeriCorps Provisions and Learn & Serve Provisions state that the grantee must retain
and make available all financial records, supporting documentation, statistical records,
evaluation data, member information and personnel records for 3 years from the date of
the submission of the final expenditure report (Financial Status Report). Several
subgrantees we audited had not submitted the final Financial Status Report (FSR) for all
program years under audit. In those instances where subgrantees had submitted final
FSRs, the Corporation had not administratively closed out the sub-grants; therefore, they
remained subject to our audit scope. The Commission should address this concern with
the Corporation during the audit resolution process.

In addition, many of the findings for which this response is given cite several exceptions
that occurred within 3 years prior to our fieldwork dates (March and April 2001).
Therefore, under the Commission's and subgrantees' interpretation of this requirement,
such documentation should have been available during our audit.

Results of Independent Audits
The Commission's response makes several references to annual independent audits of
subgrantees and the lack of significant findings related to Corporation-funded grants in
these audit reports. Entities such as the Commission's subgrantees generally may receive
two types of annual independent audits, a financial statement audit and an audit in
accordance with Office of Management and Budget (OMB) Circular A-133.

The purpose of a financial statement audit is to report on the fair presentation of the
entity's financial statements. In order to achieve this purpose, the auditors are not
generally required to test for compliance with Corporation grant requirements and may
not even test a financial transaction related to Corporation-funded grants, depending on
the size of those grants in relation to the entity's other revenues and expenditures.

Although OMB Circular A-133 audits are specifically related to federal grants, auditors
only test internal controls and compliance for a specific grant if the grant is considered a
major program for the audit. Based on our review of OMB Circular A-133 audit reports
issued related to the Commission's subgrantees subject to our audit procedures, we noted
numerous instances where Corporation-funded grants were not considered major
programs. In addition, auditors performing OMB Circular A- 133 audits are only required
to test compliance requirements that are considered to have a direct and material effect on
a major federal program. Therefore, based on auditor's judgment, the auditors
responsible for the OMB Circular A-133 audits for Commission subgrantees in which
Corporation-funded grants were considered major programs may not have performed
audit procedures over all Corporation grant requirements tested during our incurred cost
audit.

As a result, we do not consider it appropriate to draw conclusions about compliance with
Corporation grant requirements based on the subgrantees' annual independent audit
reports.

Specific Responses
We believe the responses specific to the following findings require additional comment:

rn Finding No. 6 - The Commission indicated that subgrantees operated with the
   understanding that they could revise individual budget line items as long as the total
   budget was not exceeded. The exceptions we identified in our report are in violation
   of requirements specifically identified in the AmeriCorps Provisions of the applicable
     years. As part of their subgrant agreements, subgrantees must comply with such
     specific requirements.
     Finding No. 7 - The Commission indicated that the questioned costs cover a five-year
     period; the audit report specifically identifies the two program years in question. In
 '
     addition, the Commission indicated that the methodology used combined paid staff
     with AmeriCorps members; this is only true in the case of Simpson County Board of
     Education because the subgrantee did not separately account for member living
     allowances and staff salaries, as discussed in our Report on Internal Control over
     Financial Reporting. Finally, the Commission requests additional information on the
     calculation methodology; the estimate methodology was discussed with the applicable
     subgrantees when we inquired about the variances, and our report clearly indicates
     how we computed the questioned costs.
     Finding No. 16 - The Commission responded that we contacted a subgrantee
     employee other than the program director when attempting to schedule fieldwork at
     the Learn & Serve subgrantee in question. We used the name and telephone number
     provided by the Commission's staff when attempting to contact this subgrantee; we
     understood that the contact information provided was for the program director, as
     requested. In addition, on April 13,2001, we formally communicated via an email
     message to the Commission's Executive Director and Finance Director the issues we
     had with this subgrantee; this email message specifically identified the subgrantee
     employee we had contacted and noted that all claimed costs would be questioned. We
     received no response to this email message.

Overall, our findings were based on relevant ArneriCorps Provisions, Learn & Serve
Provisions, and the documentation made available to us by the subgrantees or
Commission during our audit fieldwork. Any additional documentation that the
Commission has subsequently located that it believes will clear the reported findings,
should be forwarded to the Corporation as part of the audit resolution process.
